<html>
<title> - SECURING AMERICA'S TRANSPORTATION AND MARITIME SYSTEMS: A REVIEW OF THE FISCAL YEAR 2020 BUDGET REQUESTS FOR THE TRANSPORTATION SECURITY ADMINISTRATION AND THE U.S. COAST GUARD</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


SECURING AMERICA'S TRANSPORTATION AND MARITIME SYSTEMS: A REVIEW OF THE 
   FISCAL YEAR 2020 BUDGET REQUESTS FOR THE TRANSPORTATION SECURITY 
                ADMINISTRATION AND THE U.S. COAST GUARD

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                           TRANSPORTATION AND
                           MARITIME SECURITY

                                 OF THE

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 9, 2019

                               __________

                           Serial No. 116-11

                               __________

       Printed for the use of the Committee on Homeland Security
                                     

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
                                     

        Available via the World Wide Web: http://www.govinfo.gov

                               __________
                               
                 U.S. GOVERNMENT PUBLISHING OFFICE                    
37-451 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cbbba48ba8beb8bfa3aea7bbe5a8a4a6e5">[email&#160;protected]</a>                                 
                               
                               

                     COMMITTEE ON HOMELAND SECURITY

               Bennie G. Thompson, Mississippi, Chairman
Sheila Jackson Lee, Texas            Mike Rogers, Alabama
James R. Langevin, Rhode Island      Peter T. King, New York
Cedric L. Richmond, Louisiana        Michael T. McCaul, Texas
Donald M. Payne, Jr., New Jersey     John Katko, New York
Kathleen M. Rice, New York           John Ratcliffe, Texas
J. Luis Correa, California           Mark Walker, North Carolina
Xochitl Torres Small, New Mexico     Clay Higgins, Louisiana
Max Rose, New York                   Debbie Lesko, Arizona
Lauren Underwood, Illinois           Mark Green, Tennessee
Elissa Slotkin, Michigan             Van Taylor, Texas
Emanuel Cleaver, Missouri            John Joyce, Pennsylvania
Al Green, Texas                      Dan Crenshaw, Texas
Yvette D. Clarke, New York           Michael Guest, Mississippi
Dina Titus, Nevada
Bonnie Watson Coleman, New Jersey
Nanette Diaz Barragan, California
Val Butler Demings, Florida
                       Hope Goins, Staff Director
                 Chris Vieson, Minority Staff Director
                              ------                                
                              

          SUBCOMMITTEE ON TRANSPORTATION AND MARITIME SECURITY

                  J. Luis Correa, California, Chairman
Emanuel Cleaver, Missouri            Debbie Lesko, Arizona, Ranking 
Dina Titus, Nevada                       Member
Bonnie Watson Coleman, New Jersey    John Katko, New York
Nanette Diaz Barragan, California    John Ratcliffe, Texas
Val Butler Deming, Florida           Mark Green, Tennessee
Bennie G. Thompson, Mississippi (ex  Mike Rogers, Alabama (ex officio)
    officio)
                Alex Marston, Subcomittee Staff Director
            Kyle Klein, Minority Subcomittee Staff Director
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable J. Luis Correa, a Representative in Congress From 
  the State of California, and Chairman, Subcommittee on 
  Transportation and Maritime Security:
  Oral Statement.................................................     1
  Prepared Statement.............................................     3
The Honorable Debbie Lesko, a Representative in Congress From the 
  State of Arizona, and Ranking Member, Subcommittee on 
  Transportation and Maritime Security:
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Chairman, Committee on 
  Homeland Security:
  Oral Statement.................................................     6
  Prepared Statement.............................................     8

                               Witnesses

Mr. David P. Pekoske, Administrator, Transportation Security 
  Administration, U.S. Department of Homeland Security:
  Oral Statement.................................................    10
  Prepared Statement.............................................    11
Admiral Karl L. Schultz, Commandant, U.S. Coast Guard:
  Oral Statement.................................................    14
  Prepared Statement.............................................    16

                                Appendix

Questions From Chairman J. Luis Correa for David P. Pekoske......    43
Question From Ranking Member Debbie Lesko for David P. Pekoske...    47
Questions From Ranking Member Mike Rogers for David P. Pekoske...    47
Questions From Chairman J. Luis Correa for Karl L. Schultz.......    51
Questions From Ranking Member Mike Rogers for Karl L. Schultz....    52

 
SECURING AMERICA'S TRANSPORTATION AND MARITIME SYSTEMS: A REVIEW OF THE 
   FISCAL YEAR 2020 BUDGET REQUESTS FOR THE TRANSPORTATION SECURITY 
                ADMINISTRATION AND THE U.S. COAST GUARD

                              ----------                              


                         Tuesday, April 9, 2019

             U.S. House of Representatives,
                    Committee on Homeland Security,
                            Subcommittee on Transportation 
                                     and Maritime Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:04 a.m., in 
room 310, Cannon House Office Building, Hon. J. Luis Correa 
(Chairman of the subcommittee) presiding.
    Present: Representatives Correa, Cleaver, Titus, Watson 
Coleman, Barragan, Demings, Thompson (ex officio), Lesko, and 
Katko.
    Mr. Correa. Good morning, everyone. The Subcommittee on 
Transportation and Maritime Security will now come to order.
    The committee is meeting today to receive testimony on the 
President's fiscal year 2020 budget request for Transportation 
Security Administration, or TSA, and the U.S. Coast Guard.
    I now recognize myself for an opening statement.
    Today's hearing will examine, again, the President's 2020 
budget request. I would like to thank the administrator of TSA, 
Mr. Pekoske, for being here; our commander of the Coast Guard, 
Admiral Schultz, for appearing before this subcommittee today.
    It is often said that the budget proposals that we reflect 
are priorities. If so, this budget proposal confirms that the 
President's priorities are sorely misguided and, in fact, 
dangerous. The proposal reflects an oversight of the real 
threats facing the homeland and how to secure against them. 
This budget places funding for a border wall above all else. 
Take, for example, TSA. Again, sir, Administrator, I want to 
thank you for the great job your TSA workers do protecting our 
citizens as they fly.
    The TSA, as you know, faces a complex threat picture and 
constant resource challenges. We have seen in recent years how 
the growing number of passenger volumes threaten to outpace 
TSA's ability to securely screen passengers, as long waiting 
lines and times have grown and created chaos for the aviation 
industry. TSA has struggled to address persistent morale and 
attrition problems as well, due in part to staffing shortages.
    The recent Government shutdown highlighted to the American 
public that many TSA officers live paycheck to paycheck. In the 
face of these challenges, the President has proposed cutting 
TSA's front-line staffing by 815 full-time positions and 50 
canine teams when compared to currently-enacted levels. The 
President proposed placing additional burdens on the aviation 
industry by eliminating critical programs, such as the Law 
Enforcement Reimbursement Program and the TSA staffing of exit 
lanes, as well as cutting support for programs like the VIPR 
program and the Transit Security Grant Program. All these help 
protect our vulnerable surface transportation system.
    This is no way to fund a National security agency. Clearly, 
the TSA would struggle to operate under these cuts, and the 
American people would be left vulnerable to attacks.
    As for the Coast Guard, the proposal is not much better. 
Like the TSA, the Coast Guard faces constant resource 
challenges as it executes its multi-faceted mission. For years, 
we have asked the Coast Guard to do more with less. Though they 
have always risen to the challenge, no organization can be 
sustained indefinitely by being insufficiently funded. Our 
long-term failure to invest sufficiently in the fleet 
recapitalization has begun to affect this Coast Guard's mission 
readiness.
    If we do not invest in the construction and maintenance of 
the crucial assets and infrastructure, the Coast Guard's 
operational capabilities will be reduced at a time when you are 
mostly and sorely needed. Unfortunately, the President's budget 
again fails to make the investments needed.
    Although the budget proposes several investments in new 
cutters and aircraft, it does not include sufficient funding 
for long lead time materials to keep the Coast Guard's polar 
security cutters plans on track. The budget also does not 
provide enough funding to upgrade Coast Guard helicopter 
assets. Sadly, the President proposed zero funding to begin 
reducing the Coast Guard's $2.6 billion backlog of shore 
infrastructure maintenance and recapitalization projects.
    The Coast Guard will need to scale back its operations as 
it is forced to decommission assets without replacing them on-
line.
    Already the Coast Guard estimates that it is aware of 80 
percent of the targets of interest moving in the maritime 
environment, including movement, migrants, and illegal drugs. 
But you only have the--you can only target approximately 20 
percent of those targets that you identify.
    Despite those constraints, last year, the Coast Guard 
seized more tons of cocaine and detained more suspected 
smugglers than all the other Federal agencies combined. If the 
President truly wants to keep drugs from coming across our 
borders, he should fully fund the Coast Guard. Instead, the 
President insists on prioritizing his border wall above all 
else, including the security of the American people. Instead of 
having Mexico pay for the wall, the President proposes cutting 
over a billion dollars from the TSA and Coast Guard budgets to 
pay for the wall.
    This budget proposal is dead on arrival since Congress will 
not entertain these cuts.
    Again, I want to thank the TSA officers who serve as our 
front-line security aviation, the Federal air marshals who 
serve as our last line of defense, and the men and women of the 
Coast Guard who protect the American interests at home and 
across the globe.
    Despite these difficult challenges and missing paychecks, 
these patriots have come to put mission first, and I thank them 
very much for their service.
    Again, I look forward to hearing from our witnesses today 
about the importance of their work of their agencies to keep 
the American people secure.
    [The statement of Chairman Correa follows:]
                  Statement of Chairman J. Luis Correa
                             April 9, 2019
    It is often said that budget proposals are a reflection of 
priorities. If so, this budget proposal confirms that the President's 
priorities are sorely misguided and, in fact, dangerous. The proposal 
reflects an ignorance of the threats facing the homeland and how to 
secure against them, as it places funding for a border wall above all 
else.
    Take, for example, the TSA. The TSA faces a complex threat picture 
and constant resource challenges. We have seen in recent years how 
growing passenger volumes threaten to outpace TSA's ability to securely 
screen passengers, as long wait times have at times thrown the aviation 
system into chaos. And, TSA has struggled to address persistent morale 
and attrition problems, due in part to staffing shortages. The recent 
Government shutdown highlighted to the American public that many TSA 
officers live paycheck to paycheck.
    In the face of these challenges, the President has proposed cutting 
TSA's front-line staffing by 815 full-time positions and 50 canine 
teams when compared with currently-enacted levels. He also proposes 
placing additional burdens on the aviation industry by eliminating 
critical security programs such as the Law Enforcement Officer 
Reimbursement Program and TSA's staffing of exit lanes, as well as 
cutting support for programs like the ``VIPR'' Program and the Transit 
Security Grant Program that help protect vulnerable surface 
transportation systems. This is no way to fund a National security 
agency. Let me be clear: The TSA would struggle to operate under these 
cuts, and the American people would be left vulnerable to attacks.
    As for the Coast Guard the proposal is not much better. Like the 
TSA, the Coast Guard faces constant resource challenges as it executes 
its multi-faceted mission. For years, we have asked the Coast Guard to 
do more with less, and though they have always risen to the challenge, 
no organization can be sustained indefinitely by insufficient funding. 
Our long-term failure to invest sufficiently in fleet recapitalization 
has begun to affect the Coast Guard's mission readiness. If we do not 
invest in the construction and maintenance of critical assets and 
infrastructure now, the Coast Guard's operational capabilities will be 
reduced at a time when they are sorely needed. Unfortunately, the 
President's budget fails to make the investments needed.
    Although the budget proposes several investments in new cutters and 
aircraft, it does not include sufficient funding for long-lead time 
materials to keep the Coast Guard's Polar Security Cutter plans on 
track. It also does not provide enough funding to upgrade Coast Guard 
helicopter assets. Strikingly, the President proposes zero funding to 
begin reducing the Coast Guard's $2.6 billion backlog of shore 
infrastructure maintenance and recapitalization projects. The Coast 
Guard will need to scale back its operations as it is forced to 
decommission assets without replacements on-line.
    Already, the Coast Guard estimates that it is aware of 80 percent 
of the targets of interest moving in the maritime environment--
including movements of migrants and illegal drugs--but is only able to 
target approximately 20 percent for interdiction due to resource 
constraints. Despite those constraints, last year the Coast Guard 
seized more tons of cocaine and detained more suspected smugglers than 
all other Federal agencies combined. If the President truly wants to 
keep drugs from coming across our borders, he should fully fund the 
Coast Guard.
    Instead, the President insists on prioritizing his ineffective 
border wall above all else--including the security of the American 
people. Instead of having Mexico pay for the wall, the President 
proposes cutting over a billion dollars from the TSA and Coast Guard 
budgets to pay for the wall. This budget proposal is dead on arrival, 
since Congress will not entertain these cuts.
    Again, I would like to thank the TSA officers who serve as our 
front line to secure aviation; the Federal Air Marshals who serve as 
our last line of defense; and the men and women of the Coast Guard, who 
protect American interests at home and across the globe. Despite 
difficult circumstances and missing paychecks, these patriots have 
continued to put the mission first, and I thank them for their service.

    Mr. Correa. With that, now I would like to recognize the 
Ranking Member of the subcommittee, the gentlelady from 
Arizona, Mrs. Lesko, for an opening statement.
    Mrs. Lesko. Thank you, Mr. Chairman.
    Good morning to everyone that is here today. Good morning 
to Mr. Chairman and the Members and to the director and the 
admiral and all those here listening today. I am pleased that 
the subcommittee is meeting today to receive testimony from our 
distinguished guests on the President's fiscal year 2020 budget 
request for both the Transportation Security Administration and 
the United States Coast Guard.
    I used to be the appropriations Chairman in the areas in 
the Senate, so it is always a difficult but interesting 
subject. In our case, it was the Governor versus the 
legislature. In this case, the President dealing with the 
Congress.
    I am pleased that this year's $7.8 billion budget request 
for TSA supports robust deployment of new checkpoint 
technologies, like computed tomography and credential 
authentication technologies that will make the travelers' 
public airport screening experience safer and more efficient. 
So I think that is good news.
    I am hopeful that the successful fielding of technologies 
like CT will mean that, some day soon, Americans will be able 
to leave their liquids and laptops in their bags as they go 
through screening. That will make a lot of people happy; I know 
that.
    I am also pleased that this budget request finds 
efficiencies that will save taxpayers money, because we have a 
huge deficit and debt in our country that I believe poses a 
National security threat. The budget includes tens of millions 
of dollars saved through eliminating contract redundancies, I 
think that was $40 million we saved on that, and reducing the 
size of the headquarters, which I believe was $24 million.
    We know that transportation remains a persistent target for 
terrorist groups, so it is critical that TSA continuously 
strives to be innovative and ahead of the curve on emerging 
threats.
    With a strong National economy leading to a steady growth 
in passenger volume at U.S. airports, which I can attest to 
from flying back and forth every weekend and the plane is 
totally packed, TSA's mission is really more important than 
ever.
    Similarly, the United States Coast Guard has broad homeland 
security mission sets for migrant and drug interdiction as well 
as port security that are supported in this year's $11.3 
billion budget request. As the only branch of the U.S. military 
that operates within the Department of Homeland Security as 
well as the Department of Defense, the Coast Guard's uniqueness 
reflects the critical role it plays in protecting America's 
maritime systems.
    Recently, Congress has appropriated funding to support new 
vessels, including the Polar Security Cutter and the National 
Security Cutter programs, which I am happy we did. That will 
help achieve mission readiness and provide our servicemen and -
women better tools to protect the homeland.
    While much-needed attention remains focused on our 
Southwest Border, as was mentioned, it is also important to 
remember the critical role of the U.S. Coast Guard, what role 
it plays in protecting our communities by interdicting drugs 
and migrants attempting to cross into the United States via our 
maritime border.
    I have been told, Admiral, that sanctuary State and city 
laws, in some areas dependent upon a robust Coast Guard 
presence, are inhibiting cooperation between State and local 
law enforcement and the Coast Guard. This is concerning. 
Homeland security necessitates close coordination and positive 
working relationships among Federal law enforcement and State 
and local partners. I am worried that the resource challenges 
that the Coast Guard already faces are only further amplified 
in situations like this, so I look forward to hearing from you 
to discuss the importance of State and local partnerships.
    Again, I wish to thank Chairman Correa for holding this 
important hearing today, and I look forward to hearing the 
witness testimonies.
    Thank you, and I yield back, Mr. Chairman.
    [The statement of Ranking Member Lesko follows:]
                Statement of Ranking Member Debbie Lesko
                             April 9, 2019
    Thank you, Mr. Chairman. I am pleased that the subcommittee is 
meeting today to receive testimony from our distinguished panel on the 
President's fiscal year 2020 budget request for both the Transportation 
Security Administration and the United States Coast Guard.
    I am pleased that this year's $7.8 billion budget request for TSA 
supports robust deployment of new checkpoint technologies like Computed 
Tomography and Credential Authentication Technologies that will make 
the traveling public's airport screening experience safer and more 
efficient.
    I am hopeful that the successful fielding of technologies like CT 
will mean that someday soon, Americans will be able to leave their 
liquids and laptops in their bags as they go through screening.
    I am also pleased that this budget request finds efficiencies that 
will save the taxpayers money, including tens of millions of dollars 
saved through eliminating contract redundancies and reducing the size 
of headquarters.
    We know that transportation remains a persistent target for 
terrorist groups, so it is critical that TSA continuously strives to be 
innovative and ahead of the curve on emerging threats.
    With a strong National economy leading to steady growth in 
passenger volume at U.S. airports, TSA's mission is more important than 
ever.
    Similarly, the United States Coast Guard has broad homeland 
security mission sets for migrant and drug interdiction, as well as 
port security, that are supported in this year's $11.3 billion budget 
request.
    As the only branch of the U.S. military that operates within the 
Department of Homeland Security, as well the Department of Defense, the 
Coast Guard's uniqueness reflects the critical role it plays in 
protecting America's maritime systems.
    Recently, Congress has appropriated funding to support new vessels, 
including the Polar Security Cutter and National Security Cutter 
programs, that will help achieve mission readiness and provide our 
servicemen and -women better tools to protect the homeland.
    While much-needed attention remains focused on our Southwest 
Border, it is also important to remember the critical role the U.S. 
Coast Guard plays in protecting our communities by interdicting drugs 
and migrants attempting to cross into the United States via our 
maritime border.
    I've been told that sanctuary State and city laws in areas 
dependent upon a robust Coast Guard presence are inhibiting cooperation 
between State and local law enforcement and the Coast Guard. This is 
concerning.
    Homeland Security necessitates close coordination and positive 
working relationships among Federal Law Enforcement and State and local 
partners.
    I am worried that the resource challenges that the Coast Guard 
already faces are only further amplified in situations like this, so I 
look forward to hearing the Commandant discuss the importance of State 
and local partnerships.
    Again, I wish to thank Chairman Correa for holding this important 
hearing today, and I look forward to hearing the witnesses' 
testimonies. Thank you, and I yield back.

    Mr. Correa. Thank you, Mrs. Lesko.
    I would like to now recognize the Chair of Homeland 
Security, Chairman Thompson, for an opening statement as well.
    Welcome, sir.
    Mr. Thompson. Thank you very much.
    Good morning. I would like to thank Chairman Correa and 
Ranking Member Lesko for holding today's hearing on examining 
the President's fiscal year 2020 budget request for the 
Transportation Security Administration and the U.S. Coast 
Guard.
    I would also like to thank Administrator Pekoske and 
Commandant Schultz for appearing before the subcommittee today. 
It is a pleasure to have two qualified, Senate-confirmed DHS 
leaders here, a rarity these days given recent events. I hope 
that whoever the President nominates to be the next Secretary 
will be more qualified than the last Secretary and more capable 
of standing up for American values and the rule of law.
    Both TSA and the Coast Guard execute missions critical to 
Homeland Security. Unfortunately, the President's proposal 
would undercut these critical missions in order to fund a 
border wall. The President plans to place the homeland at risk.
    To start with the TSA, the threat environment facing the 
Nation's transportation system is active and constantly 
evolving. Yet the administration's budget fails to address 
major staffing and morale challenges facing TSA's front-line 
security work force.
    TSA has consistently struggled with low morale and high 
attrition across its work force, and these struggles threaten 
TSA's ability to execute its mission. Earlier this year, we saw 
the debilitating impact the Government shutdown had on TSA's 
work force, as many transportation security officers, or TSOs, 
struggled to provide for their families and pay their bills. 
The strain on unpaid TSOs during the Government shutdown 
magnified financial pressures already facing the TSO work 
force, which is underpaid compared to other Federal workers. 
TSOs in many instances had to shop at local food banks during 
the shutdown.
    Entry-level TSOs are paid as low as $32,600 per year, a 
little more than some less-demanding jobs elsewhere in the 
airport. Unlike employees at most Federal agencies, TSOs do not 
receive regularly-scheduled salary increases and lack basic 
work-force protection and rights.
    Mr. Administrator, you have acknowledged that better pay 
and increased staffing would result in lower attrition and 
better mission execution, and you have the authority to grant 
those pay increases if we give you the money. Some of us really 
would love to give the money so our TSOs can make more money.
    But when I look at the budget request for 2020, it fails to 
include any money for salary increases. To make matters worse, 
the President's fiscal year 2020 budget actually cuts TSA 
staffing by 815 full-time equivalent positions compared to 
current enacted levels. A proposal making such cuts in the face 
of pressing threats against our transportation system and 
steadily increases its passenger volume is a dire indictment of 
President Trump's understanding of how to keep our country 
secure.
    Moreover, the President proposed cutting or eliminating 
several critical security programs. He proposes cutting 50 
canine teams which are critical to ensuring effective and 
efficient passenger screening. He also proposes eliminating the 
VIPR program, which is TSA's most visible and mobile resource 
for surface transportation security and eliminating TSA's exit 
lane staffing.
    Additionally, he will cut the Law Enforcement Reimbursement 
Program, which supports placing uniformed officers near 
screening checkpoints in over 300 airports world-wide. The 
Trump administration should be focused on bolstering Federal 
support for such programs, not eliminating them.
    In addition, the budget fails to propose making significant 
investments to improve air cargo security, including funding a 
pilot to test new cargo screening technology as required under 
the TSA Modernization Act which Congress enacted last fall.
    The President proposed many of these cuts in each of his 
previous budgets, and Congress has repeatedly rejected those 
cuts. In fact, Members of this committee worked to include in 
the TSA Modernization Act language to protect many of these 
programs.
    The Coast Guard. The Coast Guard carries out critical 
homeland security missions, including maritime law enforcement, 
drug and migrant interdiction, port security, and the 
protection of U.S. security and sovereignty throughout the 
world. With such a vast footprint and mission, the U.S. Coast 
Guard work force is under constant pressure. Yet, like the TSA 
work force, the Coast Guard work force constantly delivers for 
the American people.
    During the recent Government shutdown, Coast Guard members 
went to work with no pay, with some struggling to provide for 
their families. That military service member would have to work 
without pay is unconscionable.
    Instead of fully supporting their efforts, the 
administration proposes underfunding the Coast Guard at a time 
when natural disasters, cyber attacks, and drug trafficking are 
making its effort more difficult every day.
    Last fiscal year, Congress made significant investments in 
modernizing Coast Guard assets, including funds to make the 
Coast Guard acquisition of a new Polar Security Cutter 
possible. These investments, however, do not fully compensate 
for years of deferred maintenance and recapitalization of the 
Coast Guard fleet and shore infrastructure.
    Finally, I must convey my frustration and disappointment 
that the Coast Guard and the Department of Homeland Security 
have stonewalled the efforts of this committee, along with the 
Committee on Oversight and Reform, to conduct oversight of the 
Coast Guard Academy. Last year, the DHS Inspector General 
substantiated claims that the Coast Guard retaliated against a 
Black lesbian officer after she reported she was subjected to 
harassment and a hostile work environment due in part to her 
race, gender, and sexual orientation.
    Following multiple incomplete and heavily-redacted 
responses from the Coast Guard to our request for documents on 
these matters, Chairman Cummings and I, along with Chairman 
Correa and others, wrote Secretary Nielsen demanding a full 
production of documents by today. If we do not receive a 
response by the close of business, we will be forced to pursue 
other means to compel production.
    As Chairman of this committee, I will not stand for 
misconduct within any department, nor will I stand for anything 
less than full transparency when this committee attempts to 
carry out its oversight responsibilities.
    Again, I thank the Chairman for holding today's hearing and 
the witnesses for their participation.
    I yield back the balance of my time.
    [The statement of Chairman Thompson follows:]
                Statement of Chairman Bennie G. Thompson
                             April 9, 2019
    It is a pleasure to have two qualified, Senate-confirmed DHS 
leaders here--a rarity in the Department given recent events. I hope 
that whoever the President nominates to be the next Secretary will be 
more qualified than the last Secretary--and more capable of standing up 
for American values and the rule of law.
    Both TSA and the Coast Guard execute missions critical to homeland 
security. Unfortunately, the President's proposal would undercut these 
critical missions in order to fund a border wall. The President's plans 
place the homeland at risk.
    To start with the TSA, the threat environment facing the Nation's 
transportations systems is active and constantly evolving. And yet, the 
administration's budget request fails to address major staffing and 
morale challenges facing TSA's front-line security workforce. TSA has 
consistently struggled with low morale and high attrition across its 
workforce, and these struggles threaten TSA's ability to execute its 
mission.
    Earlier this year, we saw the debilitating impact the Government 
shutdown had on the TSA workforce, as many Transportation Security 
Officers, or TSOs, struggled to provide for their families and pay 
their bills. The strain on unpaid TSOs during the Government shutdown 
magnified financial pressures already facing the TSO workforce, which 
is underpaid compared to other Federal workers. Entry-level TSOs are 
paid as low as about $32,600 per year, which amounts to $15.68 per 
hour--little more than some less demanding jobs elsewhere in the 
airport. Unlike employees at most Federal agencies, TSOs do not receive 
regularly-scheduled salary increases and lack basic workplace 
protections and rights. Administrator Pekoske has acknowledged that 
better pay and increased staffing would result in lower attrition and 
better mission execution, and he has the authority to grant pay 
increases, if funded. However, the fiscal year 2020 budget request for 
TSA fails to include funding for salary increases.
    To make matters worse, the President's fiscal year 2020 budget 
actually cuts TSA staffing by 815 full-time equivalent positions 
compared to currently-enacted levels. A proposal making such cuts in 
the face of pressing threats against our transportation systems and 
steady increases in passenger volume is a dire indictment of President 
Trump's understanding of how to keep our country secure. Moreover, the 
President proposes cutting or eliminating several critical security 
programs. He proposes cutting 50 canine teams, which are critical to 
ensuring effective and efficient passenger screening. He also proposes 
eliminating the VIPR Program, which is TSA's most visible and mobile 
resource for surface transportation security, and eliminating TSA's 
exit lane staffing. Additionally, he would cut the Law Enforcement 
Officer Reimbursement program, which supports placing uniformed 
officers near screening checkpoints in over 300 airports Nation-wide.
    The Trump administration should be focused on bolstering Federal 
support for such programs, not eliminating them. In addition, the 
budget fails to propose making significant investments to improve air 
cargo security, including funding a pilot to test new cargo screening 
technologies, as required under the TSA Modernization Act which 
Congress enacted last fall. The President proposed many of these cuts 
in each of his previous budget proposals, and Congress has repeatedly 
rejected them. In fact, Members of this committee worked to include in 
the TSA Modernization Act language to protect many of these programs. 
The administration apparently did not bother to read the statute when 
compiling its budget request. If enacted, I fear this proposal could 
lead to chaos and significant vulnerabilities within our Nation's 
transportation systems.
    Equally important to the discussion of our Nation's homeland 
security are efforts to secure our maritime interests. The U.S. Coast 
Guard carries out critical homeland security missions including 
maritime law enforcement, drug and migrant interdictions, port 
security, and the protection of U.S. security and sovereignty 
throughout the world. With such a vast footprint and mission, the U.S. 
Coast Guard work force is under constant pressure. And yet, like the 
TSA work force, the Coast Guard workforce constantly delivers for the 
American people. During the recent Government shutdown, Coast Guard 
Members went to work with no pay--with some struggling to provide for 
their families. That military service members would have to work 
without pay is unconscionable. Instead of fully supporting their 
efforts, the administration proposes underfunding the Coast Guard at a 
time when natural disasters, cyber attacks, and drug trafficking are 
making its efforts more difficult every day. Last fiscal year, Congress 
made significant investments in modernizing Coast Guard assets, 
including funds to make the Coast Guard's acquisition of a new Polar 
Security Cutter possible. These investments, however, do not fully 
compensate for years of deferred maintenance and recapitalization of 
the Coast Guard's fleet and shore infrastructure. Without increased 
investments to upgrade these assets, the Coast Guard will risk 
significant capability gaps.
    To face these challenges, the Coast Guard must also develop 
effective retention and recruitment tools to maintain a capable 
workforce. The service needs become more inclusive, diverse, and 
equitable to ensure it reflects the public it serves. I look forward to 
hearing from the Commandant about how he plans to improve the Coast 
Guard's retention and recruitment policies.
    Finally, I must convey my frustration and disappointment that the 
Coast Guard and the Department of Homeland Security have stonewalled 
the efforts of this committee, along with the Committee on Oversight 
and Reform, to conduct oversight of the Coast Guard Academy. Last year, 
the DHS inspector general substantiated claims that the Coast Guard 
retaliated against a Black, lesbian officer after she reported she was 
subjected to harassment and a hostile work environment, due in part to 
her race, gender, and sexual orientation. Following multiple incomplete 
and heavily-redacted responses from the Coast Guard to our request for 
documents on these matters, Chairman Cummings and I--along with 
Chairman Correa and others--wrote to Secretary Nielsen demanding a full 
production of documents be provided by today. If we do not receive a 
response by the close of business, we will be forced to pursue other 
means to compel production.
    As Chairman of this committee, I will not stand for misconduct 
within the Department, nor will I stand for anything less than full 
transparency when this committee attempts to carry out its oversight 
responsibilities.

    Mr. Correa. Thank you, Chairman Thompson.
    I would like to--other Members of the committee are 
reminded that under the committee rules opening statements may 
be submitted for the record.
    Let me now welcome our panelists. The first witness is Mr. 
David Pekoske, who has served as the seventh administrator of 
the TSA since August 2017. Before joining TSA, Administrator 
Pekoske most notably served as the 26th vice commandant of the 
U.S. Coast Guard.
    Our second witness, we will hear from Admiral Karl Schultz, 
who has served as the 26th commandant of the U.S. Coast Guard 
since June 2018. Admiral Schultz has also served previously as 
director of operations for United States Southern Command where 
he directed joint military operations in the Caribbean and 
Central and South America.
    Without objection, the witnesses' full statements will be 
inserted into the record.
    I now ask each witness to summarize their statements for 5 
minutes, beginning with Administrator Pekoske.
    Welcome, sir.

 STATEMENT OF DAVID P. PEKOSKE, ADMINISTRATOR, TRANSPORTATION 
 SECURITY ADMINISTRATION, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Pekoske. Thank you, Mr. Chairman.
    Mr. Chairman, Ranking Member Lesko, and Chairman Thompson, 
and distinguished Members of this committee, it is a pleasure 
to appear before you today. It is a pleasure to share the 
witness table with my colleague from the U.S. Coast Guard. I 
think this is the first time that we have seen TSA and the 
Coast Guard together at a hearing. I would just commend the 
Chairman for putting together such a great portfolio of 
agencies in this subcommittee.
    I value your oversight and support and thank you for your 
critical contribution to our mission success. Thank you as well 
for your support of the TSA Modernization Act, our first 
reauthorization since TSA was established.
    This reauthorization not only emphasizes TSA's passenger 
aviation security mission, but provides support and direction 
that I believe will lead to increased cargo and surface 
transportation security. We have already made substantial 
progress in carrying out the more than 175 requirements of the 
Act.
    It is an honor and privilege to lead the men and women of 
TSA. They embody our core values of integrity, respect, and 
commitment. It was that commitment that was so plainly evident 
during the recent 35-day lapse in appropriations. We appreciate 
the flexibility that having a 2-year appropriation for 
operations and support provides, which allowed us to use 
available fiscal 2018 funds to mitigate the adverse impact on 
our employees.
    I am immensely proud of TSA's team of professionals who 
include screeners, explosives experts, and canine handlers, 
intelligence and vetting personnel, inspectors and 
investigators, Federal air marshals, providers of critical 
support services, and a highly-skilled headquarter staff. It is 
our mission to ensure our transportation systems used by 
hundreds of millions of people per year and a lifeblood of our 
economy remain secure.
    We are hard at work, with your help, to provide better 
security faster. This includes the computed tomography X-ray 
technology you championed and Congress funded in fiscal 2018 
and 2019 for carry-on bags at our screening checkpoints, and 
its continuation in fiscal 2020; the credential authentication 
technology you have similarly sponsored to strengthen our 
performance at the first position in our screening process; the 
increase in numbers of screeners to reflect the strong and 
sustained growth in passenger air travel; and increases in our 
canine capability for both passenger and air cargo screening.
    The fiscal 2020 request seeks $7.2 billion partially offset 
by $3.4 billion from the aviation passenger security fee. It 
has two overarching priorities. The first is continued 
investment in checkpoint technology. In particular, the CT 
technology and the credential authentication technology. I will 
talk about each for just a moment.
    For computer tomography, or CT, 12 days ago, we awarded our 
first major contract for 300 X-ray systems. Your demonstration 
of support for this acquisition was key to our success in 
obtaining a price that was substantially less than our budget 
estimates, allowing us to purchase 50 percent more than we 
thought possible. This will more quickly improve security 
effectiveness. Not only will this technology provide vastly 
superior security, it will also be more convenient for 
passengers, eventually eliminating the requirement for most 
passengers to take anything out of their carry-on bags.
    The fiscal 2020 budget requests $220 million for 
approximately 320 more of these X-ray machines and associated 
baggage handling systems. For the credential authentication 
technology, the budget continues large-scale investment in this 
technology deploying approximately 500 additional machines, 
which improve identity and travel verification, improve risk 
management, and also result in more convenience for passengers 
who will no longer need to present boarding passes in most 
situations.
    The second key priority for the fiscal 2020 budget is 
rightsizing our work force. Commercial air travel continues to 
grow at approximately 5 percent per year. This requires an 
increase in the size of our screening work force as compared to 
the President's fiscal 2019 request and the staff who support 
them. This budget seeks over 1,000 additional screener 
positions from the President's fiscal year 2019 request that 
will allow us to maintain our screening and throughput 
standards.
    Additionally, we have been hard at work in raising the 
global bar of aviation security. This effort is focused on the 
280-plus last-point-of-departure airports around the world. An 
increase in our international footprint is needed and is 
requested in this budget.
    Finally, to respond to a changing threat, we revised our 
concept of operations for the Federal Air Marshal Service that 
allows us to make a modest downward adjustment to the size of 
this very important component of the TSA, while enhancing 
operational effectiveness. I would also note that we have 
identified efficiencies in certain aspects of our operations 
that results in approximately $160 million of program 
reductions to partially offset the growth we are requesting.
    In closing, I appreciate the opportunity to discuss TSA's 
resource needs at today's hearing. I hope you and your staffs 
have found us very responsive to your requests for information. 
I am committed to being as open and transparent as possible, 
and I am always available to discuss any of TSA's operations.
    I look forward to responding to your questions this 
morning. Thank you, Mr. Chairman.
    [The prepared statement of Mr. Pekoske follows:]
                 Prepared Statement of David P. Pekoske
                             April 9, 2019
    Good morning Chairman Correa, Ranking Member Lesko, and 
distinguished Members of the subcommittee. Thank you for inviting me to 
testify on the President's fiscal year 2020 budget, which includes a 
$7.79 billion request for the Transportation Security Administration 
(TSA). I am honored to be here and welcome the opportunity to update 
the subcommittee on the progress the agency has made during fiscal year 
2018 and thus far this year. My testimony will highlight the 
accomplishments of our exceptional workforce and explain how we have 
improved our mission execution.
    The U.S. transportation system accommodates approximately 965 
million domestic and international aviation passengers annually--this 
equates to the screening of 2.2 million passengers, 1.4 million check 
bags, and 5.1 million carry-on bags each day; over 5.3 billion 
passengers traveling on transit and over-the-road buses each year; more 
than 10.1 billion passenger trips on mass transit per year; and nearly 
900,000 chemical shipments on trucks every day. Beyond those usage 
numbers associated with a relatively open network of transportation 
modes, the physical scope of the system encompasses approximately 
126,000 miles of railroad tracks; 4.2 million miles of highway; 615,000 
highway bridges; 473 road tunnels; and nearly 2.5 million miles of 
pipeline.
    Aviation and transportation hubs remain highly-valued targets for 
terrorists, and terrorist modes and methods of attack are more 
decentralized and opportunistic than ever before. Every day, TSA is 
challenged by a persistent, pervasive, and constantly-evolving threat 
environment, both in the physical and cyber realms.
    Last year, when I testified about TSA's fiscal year 2019 budget 
request, I advised this subcommittee that we face ambitious adversaries 
on a daily basis who watch us, study our vulnerabilities, and work 
diligently to develop new attack strategies to replace those that have 
failed. To stay ahead of these adversaries, we have to innovate, deploy 
new solutions rapidly and effectively, and make the most of our 
resources--goals that are reflected in TSA's 3 strategic priorities: 
Improving Security and Safeguarding the Transportation System; 
Accelerating Action; and Committing to Our People. In short, we must 
strive to deliver Better Security Faster.
    TSA's workforce has made significant progress implementing those 
priorities. In fiscal year 2018, we----
  <bullet> Screened more than 804 million aviation passengers, 
        representing a 5 percent checkpoint volume increase from fiscal 
        year 2017;
  <bullet> Established and rapidly implemented a Computed Tomography 
        (CT) carry-on baggage screening program through procurement of 
        49 CT units and deployment of 30 of them to airports and 
        laboratories;
  <bullet> Expanded the training of explosives detection canine teams 
        in support of maintaining 1,047 TSA Passenger Screening Canine 
        and Law Enforcement Officer teams; and
  <bullet> Conducted 1,967 air carrier inspections at foreign airports, 
        145 foreign airport assessments, 62 pipeline critical facility 
        security reviews, 92 assessments of mass transit operator 
        security enhancements, and 124 assessments of security 
        enhancements by motor carriers.
    Additionally, TSA's workforce consistently demonstrated 
extraordinary diligence and commitment to duty throughout fiscal year 
2018 and continues to do so today. Of particular note, Transportation 
Security Officers (TSOs), vetting personnel, Transportation Security 
Inspectors, canine handlers, and Federal Air Marshals worked for 35 
days under extraordinarily challenging circumstances during the lapse 
in appropriations. Many of those individuals, and in particular our 
TSOs who are in junior pay bands, continued to report to work despite 
suffering financial hardships. TSA leveraged the flexibility provided 
by our appropriations to use prior year funding to mitigate the adverse 
financial impact on our workforce. Moving forward, I continue to look 
at various options under the broad scope of TSA's authorities to 
demonstrate our commitment to the workforce, reward high performers, 
reduce turnover, and improve employee morale.
    Another important element of TSA's ability to deliver Better 
Security Faster relies upon our legal authority to execute our mission. 
To that end, I want to thank Congress for the passage and ultimate 
enactment last October of the FAA Reauthorization Act of 2018, which 
includes the TSA Modernization Act.
    The TSA Modernization Act represents the agency's first 
reauthorization since its inception in 2001. Among many things, the TSA 
Modernization Act authorizes appropriations for fiscal year 2019, 2020, 
and 2021, modernizes TSA's structure and operations, and expands the 
agency's ability to innovate, engage domestic and international 
stakeholders, and execute our critical mission to protect passengers 
and cargo traveling across all modes of transportation. TSA is grateful 
for these authorities and, has already implemented more than 27 percent 
of the TSA Modernization Act requirements, including: Standing up a new 
Air Cargo Division, soliciting members for TSA's new Surface 
Transportation Security Advisory Committee, establishing and conducting 
the first meeting of a working group to expand the domestic explosives 
detection canine breeding program, and working with American Federation 
of Government Employee representatives to recommend reforms to TSA's 
personnel management system.
    In addition to directing an agency-wide efficiency review, we 
believe the TSA Modernization Act mandate for TSA to formally apply 
risk-based budgeting to surface transportation and to develop and 
submit a Capital Investment Plan (CIP) will better position us to 
strategically plan and apply our resources more effectively. We 
anticipate the CIP will be submitted next month and the surface 
transportation security assessment, which is a precursor for associated 
risk-based budget and resource allocation efforts, will be completed by 
its October 2019 deadline. These documents will be used in the 
development of future budget requests.
    As part of the budget development process, we identified cost 
savings and efficiencies in order to pursue top funding priorities in 
fiscal year 2020. These include reduction to the Federal Air Marshal 
Service based on our new Concept of Operations; contract and travel 
costs savings of $40.2 million; and anticipated staff attrition of 11.5 
percent resulting from the consolidation of TSA buildings into our new 
headquarters. In total, TSA reductions include 166 positions from 
headquarters and $181.5 million in expenditures that will be redirected 
to other higher-priority items, including support of the front-line 
workforce.
    Fully funding TSA's fiscal year 2020 budget request will enable the 
agency to build upon the progress we have made to improve front-line 
operations, accelerate the deployment of new technologies, and gain 
efficiencies through organizational restructuring and optimizing the 
use of limited resources. For instance, this budget request continues 
on-going capital investment efforts to purchase and deploy new 
technologies.
    In fiscal year 2020, TSA will buy 320 CT units using requested 
resource funding and prior year resources available in the Aviation 
Security Capital Fund. Building upon the fiscal year 2018 efforts noted 
earlier, and the anticipated procurement of approximately 202 
additional CT units in fiscal year 2019, funding the fiscal year 2020 
request will enable us to continue to accelerate the deployment of CT 
technology to the field to equip our workforce and more effectively 
enable mission execution. CT systems provide TSOs with a 3-dimensional 
view of baggage, the ability to remove unwanted clutter, and a greater 
capacity to detect explosives and prohibited items. We are also 
requesting a $12.6 million increase to further develop CT detection 
technology to identify a broader range of home-made explosives, reduce 
false alarms, enable detection of greatly-reduced threat mass, and 
potentially provide the ability for passengers to leave liquids and 
laptops in their carry-on bags.
    In addition, TSA will continue purchasing 294 Credentialing 
Authentication Technology (CAT) units using $14.8 million from base 
resources. The on-going purchases of CAT units will improve the 
detection of fraudulent documents and allow us to screen passengers 
more effectively on a risk basis.
    This budget also requests an additional $58.6 million, including 
associated costs, for additional TSOs (1,028 positions/700 FTE) to 
bolster our screening workforce. As passenger enplanements increase, so 
does TSA's operational workload. We constantly explore ways to improve 
screening efficiencies while maintaining or improving security 
effectiveness and consider various factors including space constraints, 
passenger/baggage screening demand, equipment, and risks at airports to 
right-size the workforce. For fiscal year 2020, this investment in TSO 
staffing is necessary for us to continue to meet passenger 
expectations, maintain acceptable wait times, and avoid crowding at the 
checkpoints, which is itself a security concern. The fiscal year 2020 
budget request also includes $8.8 million to implement improved 
training requirements for the agency's TSO Career Progression Plan. We 
expect this investment in the professional growth of our workforce to 
enhance screener proficiency, performance, and morale.
    Recognizing that aviation transportation security requires global 
cooperation, the budget requests $10.2 million for increased 
international outreach. This reflects TSA's commitment to raising the 
global transportation security baseline by increasing our international 
footprint in Asia, the Middle East, and at CBP preclearance locations. 
This approach is designed to deter, detect, and deny potential 
adversaries access or the ability to insert a threat into the global 
transportation system.
    Finally, in conjunction with the fiscal year 2020 budget request, 
the administration proposes raising the Aviation Passenger Security 
Fee, also known as the September 11 Security Fee, in order to fully 
cover the costs of aviation security by fiscal year 2028. The fee was 
created to cover the costs of aviation security, but currently it 
covers only 40 percent. This proposal would increase the fee by $1, 
from $5.60 to $6.60 per one-way trip, in fiscal year 2020 and then from 
$6.60 to $8.25 in fiscal year 2021. This measure would generate $599 
million in new revenue in fiscal year 2020 and close to $23 billion 
over the next 10 years.
    Last year, I announced a one-word revision to TSA's motto--changing 
``Not on My Watch'' to ``Not on Our Watch.'' This simple but 
significant adjustment reflects the fact that securing our 
transportation systems is a communal effort and that our greatest 
assets are--and will always be--our people, our partners, and the 
traveling public.
    TSA's fiscal year 2020 budget request is consistent with that 
approach. To achieve the priorities reflected within it, TSA will 
engage industry and our stakeholders to partner with us to develop and 
deploy new technology. We will also invest resources in our employees, 
who reflect TSA's core values of integrity, respect, and commitment, 
and ask them to serve as leaders regardless of their titles or level in 
the agency, and as ambassadors for TSA. We will continue to encourage 
the public to be part of the solution. Finally, through constructive 
oversight and dialog, we seek to partner with Congress as we work to 
provide Better Security Faster.
    Chairman Correa, Ranking Member Lesko, and Members of the 
subcommittee, thank you for the opportunity to testify before you 
today. I look forward to your questions.

    Mr. Correa. Thank you for your testimony.
    I now recognize Admiral Schultz to summarize his statement 
for 5 minutes.

 STATEMENT OF ADMIRAL KARL L. SCHULTZ, COMMANDANT, U.S. COAST 
                             GUARD

    Admiral Schultz. Good morning, Chairman Correa, Ranking 
Member Lesko, Members of this committee. I appreciate the 
opportunity to testify. I echo the administrator's remarks 
about testifying alongside a key DHS partner agency.
    First, on behalf of the men and women of the United States 
Coast Guard, please accept my profound thanks for your 
unwavering support, including the recently-enacted fiscal 2019 
appropriation as well as the 2018 hurricane supplemental 
funding directed to the Coast Guard. These were meaningful 
steps toward delivering the ready, relevant, and responsive 
Coast Guard the American public expects and deserves.
    Yet our work is not done. If you take just one thing from 
my testimony this morning, I ask that you remember this: 
Readiness. We must begin with ready and being ready. Ready to 
push our maritime border 1,500 miles away from our shores. 
Ready to preserve the $5.4 trillion in economic activity that 
flows across the MARAD Marine Transportation System on an 
annual basis. Ready to support combatant commander needs around 
the globe. Ready for the next hurricane season, which is just 
around the corner. Ready to put our cyber authorities to use as 
we adapt to 21st-Century threats.
    Without question, building and sustaining readiness is my 
No. 1 priority. We are at a critical junction, a tipping point 
of sorts. After almost a decade of near flat-line operations in 
support funding, Coast Guard readiness is eroding, just like 
the other armed services. Yet, unlike the Department of 
Defense, the Coast Guard funding is categorized as nondefense 
discretionary, which mean we were excluded from the focused 
efforts to rebuild the military, and continue to find ourselves 
on the outside looking in when it comes to material operations 
and support plus-ups.
    In 2017, the Department of Defense received a 12 percent 
boost in operations, while Coast Guard funding increased only 4 
percent. Yet the Coast Guard's military contributions are 
immutable. Every year we proudly expend over $1 billion on 
defense-related activities in direct support of the combatant 
commanders. But the $340 million of defense readiness monies 
that we received has not changed in more than 18 years.
    As an example of our growing defense portfolio, the 
National Security Cutter Bertholf is supporting the Indo-PACOM, 
Pacific commander, in the South China Sea, enforcing U.N. 
sanctions against North Korea and protecting and advancing U.S. 
interests across the Western Pacific.
    Though we strive for relentless resilience to execute 
Homeland's security and defense operations, our purchasing 
power has, in fact, declined. If we continue to neglect our 
growing backlog of deferred repairs and our capital assets, 
including shore infrastructure, we will lose ground in the 
fight to defend our homeland from evolving threats and 
challenges across the Nation.
    Despite these challenges, I am, in fact, extremely proud of 
the Coast Guard's contributions. In 2018, as part of DHS's 
layered security strategy and in support of Joint Interagency 
Task Force South, our surface and aviation assets interdicted 
209 metric tons. That is more than 460,000 pounds of cocaine, 
more than all other Federal agencies combined, and apprehended 
more than 600 smugglers.
    Disrupting transnational criminal organizations at sea, 
where they are most vulnerable, helps reduce the push factors 
that are responsible for driving human migration to our 
southwest land border.
    National Security Cutter Waesche, which just completed a 
patrol in the Eastern Pacific and returned, offloaded 7 metric 
tons of cocaine in San Diego just last week. Our National 
Security Cutters have exceeded performing expectations by every 
metric. Now we must focus on transition from outdated and 
costly medium-enduring cutters to our planned fleet of 25 
highly-capable offshore patrol cutters, which will be the 
backbone of the Coast Guard's offshore presence for decades to 
come.
    In the polar regions, your Coast Guard is the sole surface 
presence to protect our rights, protect our sovereignty. As 
access to the region expands and interest from China and Russia 
grows, it is in our National interest to be there to enhance 
maritime domain awareness and build governance in this 
economically and geostrategically competitive area.
    That is why the Coast Guard is poised to release a new 
arctic strategy outlook, a refresh to our 2013 strategy later 
this month. In the high latitudes, presence equals influence. 
Two weeks ago, our sole operation--well, actually 4 weeks ago, 
our sole operational icebreaker, the 43-year-old Polar Star, 
returned from 105-day patrol to the Antarctic region to conduct 
the annual McMurdo Station breakout. That mission enables 
resupply of this critical vital National interest.
    These missions take a toll, and Polar Star's crew work 
miracles keeping their ship mission viable. They battle the 
shipboard fire, numerous electrical outages, and combated an 
engine room flooding situation. Just off the ice edge, we put--
embark Coast Guard and Navy divers into the icy Antarctic 
waters to repair a shaft seal leak.
    I am proud of their efforts, but I remain concerned we are 
only one major casualty away from being a Nation without any 
heavy icebreaking capability. New icebreakers will not come 
fast enough. Thank you for the $657 million provided in the 
fiscal year 2019 appropriation toward that end.
    Finally, I appreciate the administration's support for a 
number of initiatives that invest in our greatest strength: Our 
people. While modest, they represent tangible investments 
toward a mission-ready total work force. For instance, critical 
investments in our marine inspections work force and to our 
cybersecurity operations build the capabilities that facilitate 
that $5.4 trillion of annual economic activity on our Nation's 
waterways and protect critical infrastructure.
    Last, a dollar invested in the Coast Guard is a dollar well 
spent. With your continued support, the Coast Guard will live 
up to our motto: Always ready, semper paratus.
    Thank you, Chairman, Ranking Member, and Members of the 
committee. I welcome your questions.
    [The prepared statement of Admiral Schultz follows:]
                 Prepared Statement of Karl L. Schultz
                             April 9, 2019
                              introduction
    Chairman Correa and distinguished Members of the committee, I 
appreciate the opportunity to testify today. Thank you for your 
enduring support of the United States Coast Guard, particularly the 
significant investments provided in the Fiscal Year 2019 Consolidated 
Appropriations Act.
    Your Coast Guard is on the front lines of our Nation's effort to 
protect the American people, our homeland, and our way of life. As 
threats and challenges to our National security and global influence 
grow more complex, the need for a Ready, Relevant, and Responsive Coast 
Guard has never been greater.
    Appropriately positioned within the U.S. Department of Homeland 
Security (DHS), the Coast Guard is a Federal law enforcement agency, a 
regulatory body, a first responder, a member of the U.S. intelligence 
community, and a military service and a branch of the Armed Forces of 
the United States at all times\1\--the Coast Guard offers specialized 
and unique capabilities across the full spectrum of maritime 
activities, from security cooperation up to armed conflict.
---------------------------------------------------------------------------
    \1\ 14 U.S.C.  1; 10 U.S.C.  101.
---------------------------------------------------------------------------
    The Coast Guard has matured and evolved over the course of our 228-
year history, adapting our people, assets, and capabilities in response 
to emerging National demands and international challenges. We are 
locally-based, Nationally responsive, and globally impactful.
    To outline my vision for the Service, I recently released the U.S. 
Coast Guard Strategic Plan 2018-2022. To that end, my highest priority 
is to ``Maximize Readiness Today and Tomorrow,'' and readiness starts 
with our people, who are our greatest strength. In the competitive 
marketplace the Armed Forces find ourselves, now is a critical time to 
invest in our mission-ready total workforce.
    My second top priority is continuing to ``Address the Nation's 
Complex Maritime Challenges'' through international and domestic 
leadership in the maritime domain. A unique instrument of National 
power, the Coast Guard offers the ability to secure the maritime 
border, combat Transnational Criminal Organizations (TCOs), and 
facilitate $4.6 trillion of annual economic activity on our Nation's 
waterways.
    Finally, in a competitive budget environment, your Coast Guard is 
acutely focused on my third priority, ``Delivering Mission Excellence 
Anytime, Anywhere,'' by continuously challenging ourselves to innovate 
and drive increased efficiency for better organizational performance in 
response to both man-made crises and natural disasters.
                           strategic effects
    The Coast Guard plays a critical role in a comprehensive approach 
to securing our borders--from disrupting drug trafficking and illegal 
immigration in the southern transit zones, to projecting sovereignty 
across the globe. Our Nation's maritime borders are vast, and include 
one of the largest systems of ports, waterways, and critical maritime 
infrastructure in the world, including 95,000 miles of coastline.
    As part of the DHS layered security strategy, the Coast Guard 
pushes out our Nation's border, and serves as the ``offense'' in a 
comprehensive approach to layered border security strategy. Through the 
interdiction of illicit drugs and the detention of suspected drug 
smugglers, the Coast Guard disrupts TCO networks at sea, over a 
thousand miles from our shore, where they are most vulnerable. Coast 
Guard maritime interdictions weaken the TCOs who destabilize our 
immediate neighbor Mexico, the Central American land corridor, and 
South American countries. Our interdiction efforts minimize corruption 
and create space for effective governance to exist. Coast Guard 
interdiction efforts reduce the ``push factors'' that are responsible 
for driving migration to our Southwest land border.
    Working with interagency partners, the Coast Guard seized 209 
metric tons of cocaine and detained over 600 suspected smugglers in 
fiscal year 2018, which is more than all other Federal agencies 
combined. Highlighting the capabilities of one of our modern assets, in 
November 2018, the National Security Cutter (NSC) CGC JAMES, in support 
of Joint Interagency Task Force South (JIATF-S), seized nearly 9 tons 
of cocaine and detained over 40 suspected drug smugglers from various 
drug conveyances, including low-profile go-fast vessels and fishing 
vessels. In addition to stopping these drugs from getting to our 
streets, the information we gather and share with our partners in the 
intelligence community facilitates deeper understanding of TCOs and 
ultimately helps our unified efforts to dismantle them.
    As an important part of the modern military's Joint Force,\2\ we 
currently have forces assigned to each of the 6 geographic Combatant 
Commanders (COCOMs), as well as Cyber Command, Transportation Command, 
and Special Operations Command. The Coast Guard deploys world-wide to 
execute our statutory Defense Operations mission in support of National 
security priorities. Typically, on any given day, 11 cutters, 2 
maritime patrol aircraft, 5 helicopters, 2 specialized boarding teams, 
and an entire Port Security Unit are supporting Department of Defense 
(DoD) COCOMs on all 7 continents. In the Middle East, our squadron of 6 
patrol boats continues to conduct maritime security operations on the 
waters of the Arabian Gulf in close cooperation with the U.S. Navy, 
promoting regional peace and stability.
---------------------------------------------------------------------------
    \2\ In addition to the Coast Guard's status as an Armed Force (10 
U.S.C.  101), see also Memorandum of Agreement Between DoD and DHS on 
the Use of Coast Guard Capabilities and Resources in Support of the 
National Military Strategy, 02 May 2008, as amended 18 May 2010.
---------------------------------------------------------------------------
    Likewise, as one of the principal Federal agencies performing 
Detection and Monitoring (D&M) in the southern maritime transit zone, 
the Coast Guard provides more than 4,000 hours of maritime patrol 
aircraft support and 2,000 major cutter days to DoD's Southern Command 
(SOUTHCOM) each year.
    Coast Guard authorities and capabilities bridge National security 
needs between DoD war fighters abroad and DHS agencies protecting our 
homeland. In addition to COCOM support, the Coast Guard partners with 
Federal, State, local, territorial, Tribal, private, and international 
stakeholders to address problems across an increasingly complex 
maritime domain. Our leadership on global maritime governing bodies and 
our collaborative approach to operationalize international agreements 
drives stability, legitimacy, and order. We shape how countries conduct 
maritime law enforcement and establish governance.
    Looking forward, the performance capabilities and expected capacity 
of our future Offshore Patrol Cutter (OPC) fleet will provide the tools 
to more effectively enforce Federal laws, secure our maritime borders, 
disrupt TCOs, and respond to 21st Century threats. Continued progress 
on this acquisition is vital to recapitalizing our aging fleet of 
Medium Endurance Cutters (MECs), some of which will be over 55 years 
old when the first OPC is delivered in 2021. In concert with the 
extended range and capability of the NSC and the enhanced coastal 
patrol capability of the Fast Response Cutter (FRC), our planned 
program of record for 25 OPCs will be the backbone of the Coast Guard's 
strategy to project and maintain off-shore presence.
    In the Arctic region, the Coast Guard remains steadfastly committed 
to our role as the lead Federal agency for homeland security, safety, 
and environmental stewardship. There, we enhance maritime domain 
awareness, facilitate governance, and promote partnerships to meet 
security and safety needs in this geo-strategically and economically 
vital area. As access to the region continues to expand, strategic 
competition drives more nations to look to the Arctic for economic and 
geopolitical advantages, and the Coast Guard stands ready to provide 
the leadership and sustained surface presence necessary to protect our 
rights and sovereignty as an Arctic Nation.
    Looking to the Antarctic, the 43-year-old CGC POLAR STAR, the 
Nation's only operational heavy icebreaker, just returned home after 
successfully completing Operation DEEP FREEZE (DF-19), the annual 
McMurdo Station breakout, though not without overcoming several high-
risk casualties to the ship's engineering systems. The ship's crew had 
to battle a fire that left lasting damage to electrical systems; ship-
wide power outages occurred during ice breaking operations. And in the 
same transit, divers were sent into the icy waters to investigate and 
repair a propeller shaft seal leak. Events like these reinforce the 
reality that we are only one major casualty away from leaving the 
Nation without any heavy icebreaking capability.
    With increased activity in the maritime reaches and growing 
competition for resources, we cannot wait any longer for increased 
access and a more persistent presence in the Polar Regions. Our 
sustained presence there is imperative to ensuring our Nation's 
security, asserting our sovereign rights, and protecting our long-term 
economic interests.
    Last year, we released a request for proposal (RFP) and later this 
spring we plan to award a detail design and construction (DD&C) 
contract for the construction of 3 heavy Polar Security Cutters (PSCs). 
I am thankful for your support for the $675 million in the fiscal year 
2019 appropriation. This funding, coupled with the $300 million in 
Shipbuilding and Conversion, Navy (SCN) funding in fiscal year 2017 and 
2018, is sufficient to fund construction of the first PSC as well as 
initial long lead time material for a second PSC.
    Our value to the Nation is observed on the farthest shores around 
the globe as well as closer to home where we continue to be ``Always 
Ready'' to answer the call for help. The 2018 hurricane season led to 
yet another historic Coast Guard response effort. The Coast Guard 
mobilized over 8,600 active-duty members, reservists, and civilians for 
hurricane response across the United States for hurricanes Florence and 
Michael in the mid-Atlantic States and Gulf Coast respectively, as well 
as typhoon Mangkhut in Guam.
    In support of, and in coordination with the Federal Emergency 
Management Agency (FEMA) and other Federal, State, local, and 
territorial agencies, the Coast Guard saved nearly 1,000 lives using 
helicopters and shallow water craft, provided logistical support to 
first responders, and oversaw the safe and effective resumption of 
commerce at over 20 impacted sea ports.
    While such a level of professionalism and distinction is what the 
American people have come to expect from your Coast Guard, that 
response comes at a cost. We continue to do our very best to stand 
ready to respond to all maritime disasters, both natural and man-made; 
however, these efforts consume future readiness. Our aging assets and 
infrastructure require increased maintenance and repairs, all of which 
is compounded by the on-going recovery and restoration operations of 
the historic hurricane season of 2017.
    In 2017 alone, the Coast Guard lost the equivalent of 2 major 
cutters (e.g., over 300 operational days) due to unplanned repairs. 
Expanding that to the last 2 years, we have lost 3 years' worth of 
major cutter patrol days. In 2017 and again in 2018, shortages in parts 
and supplies cost the Coast Guard over 4,500 flight hours each year, or 
the equivalent of programmed operating hours for 7 MH-65 helicopters. 
Each hour lost in the transit zones keeps us further from reaching our 
interdiction targets and helps the TCOs deliver their illicit cargoes.
    Service readiness starts with our most valuable asset--our people. 
We must continue to recruit, train, support, and retain a mission-ready 
total workforce that not only positions the Service to excel across the 
full spectrum of Coast Guard missions, but is representative of the 
diverse Nation we serve. Our workforce end strength was reduced by over 
1,250 personnel during a 3-year period from fiscal year 2012 to fiscal 
year 2015. And compared to the workforce of fiscal year 2012, the Coast 
Guard has nearly 1,000 fewer personnel to accomplish an ever increasing 
mission set. Adequate increases to depot maintenance funding, coupled 
with strategic human capital investments, are critical to addressing 
these readiness challenges.
                               conclusion
    The Coast Guard offers a capability unmatched in the Federal 
Government. Whether combating TCOs to help stabilize to the Western 
Hemisphere, responding to mariners in distress in the Bering Sea, or 
supporting U.S. Central Command (CENTCOM) on the Arabian Gulf, the 
Coast Guard stands ready to execute a suite of law enforcement, 
military, and regulatory authorities and capabilities to achieve 
mission success anytime, anywhere. We cannot do this on the backs of 
our people--now is the time to address the erosion of readiness 
experienced in our Service over the past decade due to near flat-line 
funding for operations and support.
    While the demand for Coast Guard services has never been higher, we 
must address our lost purchasing power, the growing backlogs of 
deferred maintenance on our capital assets, and the degraded 
habitability of our infrastructure.
    Our 48,000 active-duty and reserve members, 8,500 civilians, and 
over 25,000 volunteer members of the Coast Guard Auxiliary need your 
support to maintain a Ready, Relevant, and Responsive Coast Guard.
    With the continued support of the administration and Congress, your 
Coast Guard will live up to our motto--Semper Paratus--Always Ready. 
Thank you for your support of the men and women of the Coast Guard.
                    fiscal year 2020 budget request
    The Coast Guard's fiscal year 2020 budget request is focused on 
three main priorities:
    1. Maximize Readiness Today and Tomorrow
    2. Address the Nation's Complex Maritime Challenges
    3. Deliver Mission Excellence Anytime, Anywhere.
Maximize Readiness Today and Tomorrow
    The Coast Guard's top priority is Service readiness. The fiscal 
year 2020 President's budget request begins to address the erosion of 
readiness that resulted from years under the Budget Control Act. 
Critical investments in the workforce as well as depot maintenance for 
the fleet will put the Service on the path to recovery to sustain 
critical front-line operations.
    Additionally, investments in asset modernization sustain 
recapitalization momentum while advancing other critical programs. The 
fiscal year 2020 budget request supports the Service's highest priority 
acquisition, the OPC, and continues recapitalization efforts for 
cutters, boats, aircraft, IT systems, and infrastructure.
Address the Nation's Complex Maritime Challenges
    As one of the Nation's most unique instruments of National 
authority across the full spectrum of maritime operations, the Coast 
Guard cooperates and builds capacity to detect, deter, and counter 
maritime threats.
    While nefarious activities destabilize and threaten vulnerable 
regions, the Coast Guard offers capabilities, authorities, and 
established partnerships that lead to a more secure maritime border. 
The fiscal year 2020 budget invests in a holistic approach to combat 
TCOs through targeted detection and interdiction of suspected drug 
smugglers, at-sea biometrics, and increased partnerships with allied 
law enforcement nations in Central and South America, to quell illegal 
migration.
    As the Marine Transportation System (MTS) grows increasingly 
complex, the Coast Guard's marine safety workforce must adapt to 
continue to facilitate commerce. The fiscal year 2020 budget increases 
the marine inspection workforce while addressing key findings from the 
report on the tragic sinking of the freight vessel EL FARO and the loss 
of 33 crew members.
Deliver Mission Excellence Anytime, Anywhere
    The Coast Guard is an agile and adaptive force whose greatest value 
to the Nation is an ability to rapidly shift among its many missions to 
meet National priorities during steady-state and crisis operations.
    As new threats in the cyber domain emerge, the Coast Guard's cyber 
workforce serves as the critical link between DoD, DHS, and the 
intelligence community. The fiscal year 2020 budget increases the cyber 
workforce to promote cyber risk management and protect maritime 
critical infrastructure from attacks, accidents, and disasters.
    The Coast Guard seeks to continually improve organizational 
effectiveness and the fiscal year 2020 budget eliminates redundant and 
outdated IT services to reinforce the culture of continuous innovation 
and enhance information sharing across the Service.
                     fiscal year budget highlights
Procurement, Construction, & Improvements (PC&I)
    Surface Assets.--The budget provides $792 million for the following 
surface asset recapitalization and sustainment initiatives:
  <bullet> National Security Cutter (NSC).--Provides funding for post-
        delivery activities for the seventh through eleventh NSCs, and 
        other program-wide activities. The acquisition of the NSC is 
        vital to performing DHS missions in the far offshore regions 
        around the world. The NSC also provides a robust command-and-
        control platform for homeland security and contingency 
        operations.
  <bullet> Offshore Patrol Cutter (OPC).--Provides funding for 
        construction of the third ship and long lead time materials 
        (LLTM) for the fourth and fifth OPC. The OPC will replace the 
        Medium Endurance Cutters, now well beyond their service lives, 
        which conduct multi-mission operations on the high seas and 
        coastal approaches.
  <bullet> Fast Response Cutter (FRC).--Funds procurement of two FRCs, 
        totaling 54 of the 58 vessels needed for the domestic program 
        of record. These assets provide coastal capability to conduct 
        search-and-rescue operations, enforce border security, 
        interdict drugs, uphold immigration laws, prevent terrorism, 
        and enhance resiliency to disasters.
  <bullet> Polar Security Cutter (PSC).--Provides funding to support 
        detail design and construction activities of the joint Coast 
        Guard-Navy Integrated Program Office (IPO) and program 
        management associated with construction of the lead PSC. PSCs 
        will provide the Nation with assured surface access to the 
        Polar Regions for decades to come.
  <bullet> Polar Sustainment.--Supports a multi-year Service Life 
        Extension Project (SLEP) for CGC POLAR STAR, including program 
        management activities, materials purchases, and production 
        work.
  <bullet> Waterways Commerce Cutter (WCC).--Provides funding for 
        acquisition planning activities, including continued evaluation 
        of options to replace the capabilities provided by the current 
        fleet of inland tenders and barges commissioned between 1944 
        and 1990. These multi-mission platforms are integral to the 
        protection of maritime commerce on the inland rivers.
  <bullet> Cutter Boats.--Continues funding for the production of 
        multi-mission cutter boats fielded on the Coast Guard's major 
        cutter fleet, including the NSC, OPC, and PSC.
  <bullet> In-Service Vessel Sustainment.--Continues funding for 
        sustainment projects on 270-foot Medium Endurance Cutters, 225-
        foot sea-going Buoy Tenders, and 47-foot Motor Lifeboats.
  <bullet> Survey and Design.--Continues funding for multi-year 
        engineering and design work for multiple cutter classes in 
        support of future sustainment projects. Funds are included to 
        plan Mid-Life Maintenance Availabilities (MMA) on the CGC 
        HEALY, CGC MACKINAW, and the fleet of 175-foot Coastal Buoy 
        Tenders.
    Air Assets.--The budget provides $200 million for the following air 
asset recapitalization or enhancement initiatives:
  <bullet> HC-144.--Continues Minotaur mission system retrofits and 
        provides high-definition electro-optical infrared cameras to 
        meet DHS Joint Operational Requirements.
  <bullet> HC-27.--Continues missionization activities, including 
        funding for spare parts, logistics, training, and mission 
        system development.
  <bullet> HH-65.--Continues modernization and sustainment of the Coast 
        Guard's fleet of H-65 short-range recovery helicopters, 
        converting them to MH-65E variants. The modernization effort 
        includes reliability and sustainability improvements, where 
        obsolete components are replaced with modernized sub-systems, 
        including an integrated cockpit and sensor suite. Funding is 
        also included to extend aircraft service life for an additional 
        10,000 hours.
  <bullet> MH-60.--Includes funding to support a service life extension 
        for the fleet of medium-range recovery helicopters to better 
        align recapitalization with DOD's future vertical lift program.
  <bullet> sUAS.--Continues program funding to deploy sUAS on-board the 
        NSC allowing increased interdiction through greater 
        Intelligence, Surveillance, and Reconnaissance (ISR).
    Shore Units and Aids to Navigation (ATON).--The budget provides 
$174 million to recapitalize shore infrastructure that supports Coast 
Guard assets and personnel, as well as construction and improvements to 
ensure public safety on waterways. Examples include:
  <bullet> Replacement of covered boat moorings at Station Siuslaw 
        River, Oregon; recapitalization of failed aviation pavement at 
        Sector Columbia River, Oregon; construction in Boston, 
        Massachusetts to support arriving FRCs; and construction in 
        Sitka, Alaska to support arriving FRCs.
    Other (Asset Recapitalization).--The budget provides $69 million 
for other initiatives funded under the Procurement, Construction, and 
Improvements account, including the following equipment and services:
  <bullet> Command, Control, Communications, Computers, Intelligence, 
        Surveillance, and Reconnaissance (C4ISR).--Provides design, 
        development, upgrades, and assistance on C4ISR hardware and 
        software for new and in-service assets.
  <bullet> Program Oversight and Management.--Funds administrative and 
        technical support for acquisition programs and personnel.
  <bullet> CG-Logistics Information Management System.--Continues 
        development and deployment of this system to Coast Guard 
        operational assets.
  <bullet> Cyber and Enterprise Mission Platform.--Provides funding for 
        emerging Command and Control, Communications, Computer, Cyber, 
        and Intelligence (C5I) capabilities.
  <bullet> Other Equipment and Systems.--Funds end-use items costing 
        more than $250,000 used to support Coast Guard missions, 
        including equipment to support operation and maintenance of 
        vessels, aircraft, and infrastructure.
Operations and Support (O&S)
    Operation and Maintenance of New Assets.--The budget provides $59 
million and 297 FTE to operate and maintain shore facilities and 
sustain new cutters, boats, aircraft, and associated C4ISR subsystems 
delivered through acquisition efforts:
  <bullet> Shore Facilities.--Funds operation and maintenance of shore 
        facility projects scheduled for completion prior to fiscal year 
        2020. Projects include: Coast Guard Yard dry dock facilities in 
        Baltimore, Maryland; FRC Homeport Facilities in Galveston, 
        Texas; Electrical Utilities for Air Station Barbers Point, 
        Hawaii; and Housing for Station Jonesport, Maine.
  <bullet> FRC.--Funds operation and maintenance and personnel for 5 
        FRCs and shore-side support for FRCs in Galveston, Texas; Key 
        West, Florida; and Apra Harbor, Guam.
  <bullet> NSC.--Funds crew of NSC No. 9, as well as personnel for 
        sensitive compartmented information facility (SCIF) crews and 
        analytical support, and shore-side support personnel in 
        Charleston, South Carolina.
  <bullet> OPC.--Funds a portion of the crew for OPC No. 1, as well as 
        shore-side personnel to develop operational doctrine for the 
        new class of cutter to be homeported in Los Angeles/Long Beach, 
        California.
  <bullet> HC-130J Aircraft.--Funds operations, maintenance, air crews, 
        and pilots for HC-130J airframe No. 12.
    Pay & Allowances.--The budget provides $118 million to maintain 
parity with DoD for military pay, allowances, and health care, and for 
civilian benefits and retirement contributions, including a 3.1 percent 
military pay raise in 2020. As a branch of the Armed Forces of the 
United States, the Coast Guard is subject to the provisions of the 
National Defense Authorization Act, which include pay and personnel 
benefits for the military workforce.
    Asset Decommissionings.--The budget saves $12 million and 119 FTE 
associated with the planned decommissioning of 1 High Endurance Cutter 
(WHEC) and 3 110-foot Patrol Boats (WPBs). As the Coast Guard 
recapitalizes its cutter and aircraft fleets and brings new assets into 
service, the older assets that are being replaced will be 
decommissioned:
  <bullet> High Endurance Cutter (WHEC).--The budget decommissions one 
        WHEC. These assets are being replaced with modernized and more 
        capable NSCs.
  <bullet> 110-foot Patrol Boats (WPBs).--The budget decommissions 
        three WPBs. These assets are being replaced with modernized and 
        more capable FRCs.
    Operational Adjustments.--In fiscal year 2020, the Coast Guard will 
make investments that begin to address the erosion of readiness of the 
Service while investing in new workforce initiatives:
  <bullet> Aircraft Federal Aviation Administration (FAA) Compliance.--
        The budget provides $22 million to replace obsolete aircraft 
        equipment and systems necessary to comply with FAA 2020 
        airspace requirements.
  <bullet> Cyber and IT Infrastructure.--The budget provides $16 
        million and 38 FTE to mature the cybersecurity defense program. 
        The budget also provides funding for an information technology 
        framework and platform to establish a consolidated user 
        interface primarily for Command Centers.
  <bullet> Restoring Depot Readiness.--The budget provides $10 million 
        to begin to restore eroded vessel and aircraft readiness and 
        address critical information technology maintenance and 
        inventory backlogs.
  <bullet> Human Capital and Support Infrastructure.--The budget 
        provides $17 million and 22 FTE to improve enterprise-wide 
        support for the workforce, including the transition to 
        electronic health records and training and support for the 
        Coast Guard Reserve.
  <bullet> Counter Transnational Criminal Organizations (TCO).--The 
        budget provides $7 million and 26 FTE to expand the Coast 
        Guard's capacity to execute a multi-layered approach in the 
        Western Hemisphere maritime transit zone, dismantle TCOs, and 
        secure our Nation's borders from illicit smuggling of all 
        kinds.
  <bullet> Maritime Safety, Security, and Commerce.--The budget 
        provides $6 million and 20 FTE to strengthen the Coast Guard's 
        marine safety program through improved marine inspector 
        training, establishment of a third-party oversight and auditing 
        program, expansion of the marine inspector workforce, and 
        improved accession opportunities for marine inspectors.

    Mr. Correa. I thank the witnesses for their testimony.
    I will remind each Member that he or she will have 5 
minutes to question the panel.
    I will now recognize myself for the first set of questions.
    Admiral Schultz, you went over a little bit there, over 
your time, but I really wanted to hear your statement. As I 
listened to both of you here speak today, Administrator 
Pekoske, I was thinking to myself, you can't afford to be wrong 
once. You have to be 100 percent on your job. TSA cannot afford 
one error. One error means we can have air passengers face 
disaster.
    Admiral Schultz, let me ask you. Is the Coast Guard--is 
your job limited to 12 miles off the coast of the United States 
or are you world-wide in terms of your operations? Because the 
more I learn about what you do, North Korea, enforcing military 
operations in the area. When I was in Puerto Rico recently, I 
went to visit your Coast Guard operations, and I found out your 
operations go all the way to the coast of South America. So you 
are really operating world-wide.
    We talked about interdictions of drugs. You estimate, out 
of 100 percent of those shipments coming into the United 
States, you can track about 80 percent of them. Of those 80 
percent of those shipments that you can actually identify, you 
only have the assets to interdict about 20 percent.
    So when you are looking at investments in terms of keeping 
drugs away from our country, you know of those 80 percent of 
those shipments, yet you can only touch 20 percent. You know 
where they are coming. You know where they are going. You know 
what those targets have, and yet you don't have the resources 
to stop them.
    So my question to both of you: What are you doing wrong? 
What are you doing wrong in terms of telling Congress, telling 
the administration of the good work you do? Short of losing 
your jobs, what can we do to make sure people understand that 
you are the place we need to invest our resources to keep our 
airways safe and to keep drugs away from our country?
    What else can we do? What else can you do?
    Mr. Pekoske. Mr. Chairman, I appreciate the question. What 
I would offer is continue to do what you are already doing. You 
ask a lot of very good questions both at the Member and the 
staff level. We do everything we can to be as responsive and 
complete in our answers as we possibly can be. I think that 
dialog is very important for a mutual understanding of the 
challenges we face.
    Additionally, both Admiral Schultz and I know that we are 
not operating in an unconstrained resource environment. 
Difficult choices need to be made. They are made every year. 
The budget reflects the choices that we make within the funding 
envelope that we are provided. Our job is really to make the 
best use of the resources that we end up in an appropriation.
    The final thing I would mention is that the fiscal 2020 
request reflects the President's budget for fiscal 2019, 
because the full budget had not yet been passed by the time 
this budget was put together. So there are some assumptions 
made in the budget proposal that did not reflect the final 
appropriated budget. But I would say that the top line wouldn't 
move much as a result of that. But just some of the choices 
perhaps that we might make within that envelope might be 
slightly different.
    Admiral Schultz. Chairman, I thank you for the question. I 
would say the Coast Guard, as you called out, is a unique and 
enduring value proposition for the Nation. We are deployed on 
any given day, support. And generally, 5 of the 6 geographic 
combatant commanders, whether it is drugs in the SOUTHCOM area, 
we have got, you know, the Antarctic, the Arctic with polar 
icebreakers. We are in the South China Sea, as you know, with a 
National security cutter today. We domestically rescue more 
than 20,000 people on an annual basis. We have border security 
missions. We are a locally-based domestic organization with 
global responsibilities, and we have unique authorities. I 
would say 11 statutory missions are tough to roll up in a 3-
line elevator speech. So we are a complex organization that 
brings a lot to the table.
    The 2020 budget proposes some ability to bite into the 
eroding readiness that we suffered in recent years. The capital 
budget maintains momentum on our top priorities. That is 
maintaining momentum on the polar security acquisition, on the 
offshore patrol cutter acquisition. Those are our top 
priorities.
    We are building ships, National Security Cutter, offshore 
patrol cutters, fast response cutters. We are going to award a 
contract for the icebreaker here probably in the next 30 to 45 
days. It is an exciting time in terms of new capital assets for 
the Coast Guard with the Congress' and the administration's 
support.
    Where we struggled in recent years, as I called out in my 
statement, is the operating budget. It has been essentially--we 
have lost about 10 percent purchasing power in the last 8 to 10 
years under the Budget Control Act conditions.
    So that is the place, sir, we are looking to raise the 
visibility. It is my job, and I will work, you know, diligently 
to tell this story so people understand we are the fifth armed 
service. We are an armed service first and foremost every day, 
appropriately situated in the Department of Homeland Security. 
But with that, sometimes the conversations that raise the bar 
about the armed services, we are not in that conversation. That 
is my job to make sure I communicate that narrative.
    Mr. Correa. Admiral, I am glad you ended your statement in 
that manner, because you are the fifth military branch, yet I 
believe you are the one that doesn't get the credit. You are 
fully audited, transparency, and you are the ones whose budgets 
are not addressed, and yet you seem to be the ones that, again, 
not only protect our shores, but have military operations 
internationally.
    I just believe both of you have such critical jobs to 
protect our country that we need to make sure the folks that 
put together these budgets and vote on these budgets understand 
your missions and fund you adequately.
    Again, Mr. Administrator, you have to be 100 percent. Zero 
errors is what we are expecting. That is what your men and 
women are delivering right now.
    With that being said, I want to recognize the Ranking 
Member of the subcommittee, the gentlelady from Arizona, Mrs. 
Lesko, for questions.
    Mrs. Lesko. Thank you, Mr. Chairman.
    My first question is for Administrator Pekoske. I recently 
met with the Phoenix airport administrators, and they said they 
have experienced a number of TSA system failures over the last 
few years related to their checked baggage screening where the 
inline baggage system was broken down. They said it happened as 
recently as February and early March. They basically said that 
there was no backup system and that they had to--you know, they 
spent wasted time and that type of thing.
    Do you know if the TSA is doing anything to correct those 
problems?
    Mr. Pekoske. Yes, ma'am. I am very aware of the problems 
they have had. Essentially, what has happened is the servers 
that support the--those systems have gone down, and you 
mentioned most recently in February, which creates significant 
issues for both passengers and certainly for TSA and for the 
carriers, because when that happens, sometimes we are not able 
to match a bag on a plane with a passenger and they have to 
wait for it to get delivered in a follow-on flight.
    One of the things that we are doing is making sure we have 
adequate backup servers in that airport to support that 
problem. I would note too that that is a rather unusual problem 
to have. That is not something we see across the system of 440 
airports. So we are on it. We are making sure that we do 
everything we can to prevent that kind of disruption in the 
future.
    Mrs. Lesko. Thank you.
    Another question for you, sir. I want to give you the 
opportunity to explain why the budget proposal would keep our 
Nation secure. Is it enough money? I know you always want more 
money, but we always have to balance it with being fiscally 
responsible with taxpayer money and making sure our country is 
safe. So if you could explain how this budget will keep our 
country safe.
    Mr. Pekoske. Yes, ma'am. The budget will primarily keep our 
country safe by continuing the operational investment in TSA, 
and then, additionally, providing additional funds for our 
technology infusion.
    What I see as I look at our screening checkpoints, in 
particular, and, to an extent, our checked baggage systems is 
that we need a significant technology refresh across the board. 
Congress' support, the administration's request for the 
computed tomography systems has been very, very significant.
    We have been able to, in the course of just a year, go from 
a project envisioned to a contract, which is really unheard of 
in the Federal Government. That is due to two key factors. One 
is the strong signal this Congress sent to everyone that this 
was very important to the Congress, with the significant 
funding level you provided. Then, second, to the flexibility 
and the creativity of my acquisition staff, my contracting 
staff, and the Department's acquisition and contracting staffs. 
We moved mountains to get this acquisition in place.
    The second piece would be that credential technology, which 
really will reduce significantly any identity fraud, any 
boarding pass fraud that might occur at the checkpoints, and 
also allow us to better assign passengers to the risk security 
that they need to receive.
    So I am very excited about the technology investment that 
is in this budget and what it signals for the future, because 
this is going to be a long road of technology, not just with 
the--you know, the carry-on bag X-ray systems, but with your 
on-body anomaly detection systems and the identity systems. I 
mean, all those together are very important for us to really up 
the game in security effectiveness.
    Mrs. Lesko. Thank you, Mr. Administrator. I have like 1\1/
2\ minutes left, so I am going to ask the admiral a question.
    It is basically--you know, my understanding is, you know, 
the reduction in funding from last year's enacted budget 
primarily had to do with that you bought these cutters last 
year. Is that your understanding?
    Admiral Schultz. Ranking Member, yes. [Inaudible] $675 
million on top of the--you know, it was in the request. So we 
are maintaining momentum. That is the glide slope we need to be 
in. Clearly, you know, accelerated funding. The Congress has 
been very supportive on our shipbuilding, our aviation 
accounts. But this budget includes momentum moving forward and 
it funds our front-line operations and it actually starts to 
bite into some of the erosion of readiness we have had. So this 
budget allows the Coast Guard continued front-line operations, 
maintain momentum on critical programs.
    Mrs. Lesko. Thank you. One last question is I have been 
told that some of the sanctuary State and city programs are 
actually inhibiting the cooperation between local governments 
and the Coast Guard. Have you heard any of that, and can you 
explain it?
    Admiral Schultz. So, Ranking Member Lesko, I would tell 
you, the Coast Guard absolutely exists on partnerships. We are 
lead Federal law enforcement agency in the maritime domain. We 
work with State, local folks, whether it is a single sheriff 
office with one boat, through State partnerships to a lot of 
capabilities.
    Generally, you know, we are funded to continue front-line 
operations, work those partnerships. There have been some 
examples. In Southern California, we got a couple cases. I 
would say they are anomalous. They are not the day-to-day. Day-
to-day, we continue to work well. But I have talked to field 
commanders in recent visits who tell me, you know, we don't 
have 100 percent predictability that a local sheriff, a local 
police marine unit is going to launch on a case to the degree 
we had yesteryear. But I would tell you we are working across 
those things. It is not something that I think is a big 
inhibitor to our mission. But I have heard some of those 
stories.
    Mrs. Lesko. Thank you, sir.
    I yield back.
    Mr. Correa. Thank you, Mrs. Lesko.
    Now I would like to recognize our colleague, Mr. Cleaver, 
from the good State of Missouri, for 5 minutes of questions.
    Mr. Cleaver. Thank you, Chairman Correa.
    Admiral, thank you for being here. Actually, both of you 
are welcomed here in this committee.
    Admiral, to follow up on what Chairman Thompson said, do 
you know of any reason why we would not be able to--why we have 
not received information on a very, very clear discrimination 
complaint?
    Admiral Schultz. Congressman Cleaver, thanks for the 
question. I would say, first off, regarding the whistleblower 
complaint, we--that was a DHS report that came out in December. 
With the shutdown, we lost a little time in being directed by 
DHS to take action on that. We have acted on all those 
directives, including taking care of the officer, involved 
officer's evaluation, changing our training updates, our civil 
rights manual. We got a couple final tweaks on deploying 
training to managers in the field.
    On the broader topic of producing documents for the 
committee, we have a due date today, as the Chairman mentioned. 
We are going to deliver new information on 9 inquiries and 
investigations that haven't been produced before. We have over 
450 pages of emails, you know, redacted for PII and attorney-
client, you know, internal deliberative-type stuff, but minimal 
reactions, and then over 9,000 pages of what we call Defense 
Equal Opportunity Climate Surveys. So we will meet that 
submission date today, and we continue to work with the 
department, Office of General Counsel, to be as responsive as 
possible.
    Mr. Cleaver. Thank you. I appreciate that. You know, these 
kind of issues are significant to us and should be to all 
Americans. Thank you very much.
    Mr. Pekoske, thank you for being here. Kansas City, 
Missouri, is one of only 2 cities in the United States, major 
cities, where the TSA is not operated by the TSA. I am in the 
process now of trying to figure--I know why it was done that 
way, Kansas City and San Francisco. They were test models back 
in the day. But that was what, 2002? We are 2019. Can you give 
me any reason why that situation should remain as it is?
    Mr. Pekoske. Yes, sir. It is really an airport decision 
first. The airport needs to request to TSA, if they are 
currently a TSA Federally-screened airport, if they wanted to 
go to a private contract, they would request that to TSA, and 
in a very short period of time, we respond to them. If we 
approve that request, which we almost always do, then we look 
at the members of our IDIQ, indefinite delivery/indefinite 
quantity contract, and issue a task order request for 
proposals. That comes back, and then we make a decision as to 
how to proceed.
    That program is called the Screening Partnership Program, 
and it exists in about 22 airports around the country. It has 
operated well, in my view. It is a TSA contract, not an airport 
contract. When we do testing on those systems as compared to 
the Federal systems, they test at about the same rate.
    Mr. Cleaver. It seems a little weird, though; you have 
people who are not really with the Federal Government wearing 
the same uniforms, doing the same thing, which leads me to this 
other issue. I am very much concerned about the $1.6 billion 
cut, allegedly, for deficit reduction. I don't want to put you 
in a bad spot--yes, I do.
    Do you agree with that?
    Mr. Pekoske. Sir, that was part of the Balanced Budget Act 
of 2013, and it basically takes part of the aviation security 
passenger fee and applies it toward deficit reduction. Then the 
balance gets applied to TSA as an offsetting collection to our 
budget.
    Mr. Cleaver. But we are constant--I mean, the Federal 
excise taxes are what, 7.5 percent? Is that about right? OK. 
Then we have the passenger security fees which have gone up.
    If we are going to pay that--and I think, to get security, 
I am willing to pay that, and I think most Americans are. But 
there are a couple things that ought to happen. One, TSA 
employees ought to make more money. I mean, they are the 
protection between us and the bad guys. I think the turnover 
seems to be rather high. That means we are not paying 
competitive salaries.
    My time is running out, but I am deeply concerned about 
that. Hopefully, you can make some suggestions to us about what 
we need to do.
    Thank you, Mr. Chairman.
    Mr. Correa. Thank you, Mr. Cleaver.
    Now I would like to recognize Mr. Katko from the good State 
of New York.
    Mr. Katko. Thank you, Mr. Chairman.
    Admiral Schultz and Director Pekoske, it is great to see 
you both. We thank you both for your long and storied careers 
in public service.
    Director, I just want to commend you again, and I am sure I 
speak on behalf of the entire committee, how proud we are of 
the TSOs who worked during the shutdown in such an admirable 
fashion and kept our country safe. They are a credit to public 
service for sure, and I appreciate that.
    Admiral, I must say, it is going back on memory lane seeing 
you here, because I think of all the interactions I had as an 
organized crime prosecutor, especially when I was in Puerto 
Rico, and the interactions I had with the Coast Guard were 
superb. It is amazing how much drugs you keep off the streets, 
and the interdictions you make really make a difference. So I 
commend you for that as well.
    Director Pekoske, a couple questions for you. First and 
foremost, could you give us an update on where you are at with 
the number of CT scanning machines or screening machines you 
have been able to order?
    I am concerned, like all of us are, that we should have 
those machines now. At the rate we are funding them, we are not 
going to have them fully funded and fully in place for 10 years 
or so, and that is completely unacceptable. So if you could 
give us a quick update, I would appreciate that.
    Mr. Pekoske. Yes, sir. The CT program, as I mentioned, is 
off to, in my view, a great start. By the end of this fiscal 
year, with the fiscal 2019 contract we just awarded, which is 
the first major contract, we should have 75 additional CT 
machines deployed across the country. Then over the course of 
fiscal 2020, we should have 225 more.
    So that is--to me, that is a big first step. But we do have 
a second contract coming up in fiscal 2020, and that is what 
the funds are requested for in this budget. We anticipate that 
contract will be at least 320 systems, perhaps more. It all 
depends on the pricing that we receive.
    I share your concern that we want to put this capability 
out as quickly as we can. That is why I was pleased with how 
this contract worked where we got, you know, 50 percent more 
machines than we thought we were going to get based on the 
pricing that came in from the bids.
    Mr. Katko. Well, that is superb. It is great news to hear 
that you are actually saving the Government money, so well 
done.
    But I just want to make sure I get the right amount here. 
If we fulfill the 2020 budget request, how many machines will 
we be able to put on-line between this year and 2020?
    Mr. Pekoske. That would be about 650 total. Given the ones 
we currently have installed plus the ones we are going to put 
out in 2019 and then the ones in 2020, we need about 2,500 at 
the end of that.
    Mr. Katko. So that makes my point, I guess, is you have 
done a superb job of getting as much bang for the buck as you 
can. But this is not a time to be slashing TSA's budget.
    It is not a time to be slashing the admiral's budget 
either, because when you have aging equipment, you need them on 
the front lines. I mean, for every boat that is out of 
commission, that is one more drug trafficker that has got a 
submarine that they are using or fast boats coming over from 
Colombia to Puerto Rico or coming up the Mexican coast that we 
are missing.
    So, you know, these are two front-line places, the Coast 
Guard and the TSA, where being penny-wise and pound-foolish is 
just plain dumb. I hope that sanity prevails with the budget 
requests for both of you. I do not support the cuts to either 
one of you because, you know, I have been in Government since I 
was 28 years old. There is a lot of fat in bureaucracy that we 
can get rid of, and I don't see it in your two organizations. 
So stay lean and mean; we appreciate everything you are doing.
    As far as the airport infrastructure issue, have you been 
encountering anything with the airports, sir, Director? When 
you are putting in the CT machines, will they have 
infrastructure issues that they are encountering? I know the 
machines are a different size and shapes and what have you.
    Mr. Pekoske. We have worked very cooperatively with the 
airports. The initial ones that we deployed this year and last 
for testing purposes was done with the airports helping us in 
that process. Everything went, really, according to schedule in 
that regard. We do have a deployment plan that we are 
developing not just for the 2019, you know, the 75 this year, 
225 next year, but also planning for 320 or more, and then 
probably stepping it up another level to get that done quicker, 
as you mentioned.
    Mr. Katko. Last, it is one of my personal bugaboos being 
former Chair of this committee for 4 years. Every time I walk 
out on National Airport, I see 4 people standing there in the 
exit lanes. Three to four guards, they are usually just 
standing there, you know, because they have to make sure no one 
walks in. Having the exit lane technology that was discussed, 
like they have in the Syracuse airport and many airports 
throughout world, I would love to see that, because then you 
can redeploy those people in those--those 3 or 4 personnel to 
other areas on the front lines. So I am not talking about 
cutting any jobs; I am just talking about saving that.
    Would that save TSA in the long run if you had exit lane 
technology?
    Mr. Pekoske. It certainly would. You know, it would save us 
over 1,000 positions, which is not insignificant at all. I 
agree with you 100 percent. This is a technology solution, not 
a people solution.
    Mr. Katko. All right. If I have more time, Admiral, I would 
ask you questions as well. But thank you both very much.
    I yield back, Chairman.
    Ms. Titus [presiding]. I now recognize myself, Dina Titus, 
for 5 minutes.
    I would like to go back to the point made by Mr. Cleaver 
about the fees. It just doesn't seem to me to make any sense 
that you want to raise the fee from $5.60 for a one-way trip to 
$6.60, and then take away $1.6 billion to go to the deficit. I 
mean, you are asking people to pay more for their safety and 
then taking their money to pay down the deficit caused by a tax 
break for billionaires. I just don't really think that is fair 
to the people who are flying into my district for a little 
holiday. That is not my major question; that is just a point of 
why I support the Chairman's move to put that funding back.
    I would like to ask you both about programs that you have 
with Saudi Arabia. I have been pursuing this and raised it with 
both the Department of Homeland Security and the Department of 
State. With TSA, there is a MOU where you arranged to train 
people to be air marshals, which would allow armed Saudi agents 
to be deployed on U.S.-bound flights. I know it is not fully 
operational, but it is moving in that direction. I wonder if 
you are satisfied that there is enough oversight and security 
there, especially with a country like Saudi Arabia that we 
really--I don't trust.
    Then the Coast Guard also has a program where, over the 
past 5 or 6 years, you have been training Saudi Arabians to 
protect their maritime infrastructure. I would like to get more 
information about that from the Coast Guard.
    Then I would like to ask both of you if you would look at 
this list of the people who were released today by the State 
Department, 16 individuals who have now--aren't allowed to come 
into the country because of their roles in the murder of the 
journalist, and tell me if any of those people were involved in 
any of the training programs that you all have done, either 
with the TSA or the Coast Guard.
    Admiral Schultz. Congresswoman Titus, thank you for the 
question, ma'am. So, yes, in fact, we do have the Coast Guard 
training program. Ten members on a team, maritime 
infrastructure training group. We are working with Saudi 
maritime forces looking at regional maritime security in the 
region. Now, obviously, regional civil war when Yemen, Saudi, 
Red Sea, Arabian Gulf, broader regional terrorist concerns 
there. We are building some capability to deal with an 
increasingly difficult Iran, Iranian small boats in those 
regions. We have been at that for a handful of years here and 
continuing with that program.
    When you pull that up, we have some unique authorities. A 
little bit unique from DOD and where we can go in and partner 
on developments. Eventually, the Saudis will buy boats and take 
over this, so it is a foreign military sales case purchase, you 
know, through foreign military government. When we provide 
Coast Guardsmen, salaries are funded, and we are enhancing the 
regional maritime security capability, which I think, you know, 
rolls up into broader National U.S. interests there, ma'am.
    Ms. Titus. So the Saudis are paying for all of this?
    Admiral Schultz. Foreign military sales, yes, ma'am.
    Ms. Titus. How do you screen the people that come into that 
program from Saudi Arabia?
    Admiral Schultz. Ma'am, I would like to get back to you to 
make sure I answer that correctly on the screening of that. I 
owe you an answer for the record.
    Ms. Titus. OK. How do you keep tabs on them after they have 
gone through the program? If any of the people on this list 
have been in the program, could you get back to me on that?
    Admiral Schultz. We will circle back with your staff, 
ma'am.
    Ms. Titus. Thank you.
    Could you address it from the standpoint of TSA?
    Mr. Pekoske. I sure can. First off on the list, I have not 
seen that list, so we will get back to you for the record on 
that list. But, you know, our program goes back about 11 years 
with the Saudi Arabian government working right through the 
Department of State. We have established, you know, a technical 
cooperative agreement. It is fully reimbursable, not unlike we 
do with many other countries around the world.
    What this agreement, though, does not cover is it does not 
cover an agreement for Saudi air marshals to land in the United 
States. That is not part of this at all. That would be a 
totally separate process, and we aren't at that point.
    We have done a number of assessments with the Saudis. We 
did a 2-week period of training in 2017 with our Federal air 
marshals. This was all part of an effort to raise the global 
bar in aviation security and develop capability in other 
nations, and Saudi Arabia is part of that mix.
    But the final thing I would mention is that Ambassador 
Designate John Abizaid, who hopefully will get confirmed by the 
Senate shortly, I am sure will make a separate assessment once 
he gets in country on these programs overall. But we really 
take our queues from the State Department, and we certainly 
fully vet all the participants in our programs.
    Ms. Titus. Do you keep track of them after they have gone 
through the program?
    Mr. Pekoske. If they flew into the United States, you know, 
any passenger that flies into the United States, we do some 
vetting on those passengers. So if they flew into the United 
States, yes, we would.
    Ms. Titus. What about the secondary screening level where 
you are training people from Saudi Arabia to be at other ports 
of entry for Saudi flights where they can just stop somebody 
who might be coming into the country?
    Mr. Pekoske. We have a number of what we call PreClearance 
airports, which means that when you go through the screening 
process and the Customs process in that airport, it is as if 
you went through the process in the United States so you don't 
get rescreened in this country. But if you don't go through a 
PreClearance airport and you come into the United States, then 
you get rescreened by both Customs and TSA.
    Ms. Titus. You don't have any reservations about doing 
business with a country where we have just had the murder of a 
journalist who was a resident of the United States?
    Mr. Pekoske. Ma'am, we would evaluate that very carefully 
in concert with the State Department and would rely on our 
joint judgment as to what the best path forward is.
    Ms. Titus. Well, would you all both get back to me with 
that information I requested?
    Mr. Pekoske. Yes, ma'am.
    Admiral Schultz. Yes.
    Ms. Titus. Thank you.
    My time is up. Our Chairman is back, so I will yield over 
to him. Thank you.
    Mr. Correa [presiding]. I would like to recognize Mrs. 
Watson Coleman from the good State of New Jersey for questions.
    Mrs. Watson Coleman. Thank you, Mr. Chairman. Thank you to 
both of you for being here.
    Mr. Pekoske, my question is going to deal with that CT 
contract, that single contract for $96.8 million. I am glad 
that we are getting them. I am glad that we are moving forward. 
What I don't understand is why you decided to award a single 
contract to a single vendor instead of multiple vendors. So 
what would your strategy be to incorporate a more diverse 
network of technology manufacturers, as the Modernization Act 
states?
    Mr. Pekoske. Yes, ma'am. That was a single-award contract, 
the first contract of two, because the second contract will be 
a contract to support the fiscal year 2020 request that is in 
the President's budget. That first contract we thought it was 
important to go for a single award because we really wanted to 
establish the price for these systems. We had a Government cost 
estimate of what we thought the price would be. If you do an 
award process where there is only one winner, we find that the 
participating vendors tend to sharpen the pencil a lot more on 
price. That was, in fact, what we saw in this regard.
    I share the concern with making sure we include small 
businesses and all the innovation that small businesses bring 
into our overall procurement process. As we look at the second 
contract, which will be much larger, because this one was for 
300 systems overall. This second contract will go over multiple 
years. In response to Mr. Katko's question, you know, we are 
going to have about 650 systems in place by the time these two 
contracts are fully run. When the next one, the fiscal year 
2020 contract goes, then you have got up to 2,500 systems in 
addition to the 650.
    Mrs. Watson Coleman. So will you consider a small business 
set-aside in that contract going forward?
    Mr. Pekoske. Yes, ma'am. We will definitely consider that--
we are going to consider all of our contract options because we 
want to get the capability out as quickly as we can, but we 
also want that innovation.
    Mrs. Watson Coleman. Thank you. Thank you.
    Admiral, in 11 days, we will hit the ninth anniversary of 
the BP Deepwater Horizon oil spill, the largest oil spill in 
history. The U.S. Coast Guard is the lead Federal agency for 
preparedness in response to the oil discharges and hazardous 
substance releases in the coastal zone, and it lead the 
response to this disaster. BP has paid about $60 billion, but 
do you have any--by any chance recall about how much it 
actually cost the Federal Government to respond to this 
disaster?
    Admiral Schultz. Congresswoman Watson Coleman, I will have 
to get you that answer for the record. I don't have that 
number.
    Mrs. Watson Coleman. Thank you. Through the Chairman, I 
appreciate that, that you will get that information to me.
    The administration is seeking to vastly expand offshore 
drilling but is also proposing cuts to the U.S. Coast Guard's 
Marine Environmental Protection account for next year. Do you 
think that is responsible?
    Admiral Schultz. Congresswoman, as we look into the 2020 
proposed budget, where there is actually some growth in our 
marine safety program, marine investment environmental 
response, we have about 20 billets, what we call marine 
inspectors, that work with industry on the regulatory front. We 
pride ourselves as common-sense regulators. We have some monies 
in there that look at third-party oversight as we look at 
increasingly complex maritime domain, the future being 
autonomous vessels. You know, we have got to look at the 
workload, our ability to manage that, and how we bring in third 
parties from industry. So there was actually some growth. The 
entire 2020 budget includes about 600 additional Coast Guard 
positions, some of them will be going toward that mission set.
    Mrs. Watson Coleman. Thank you, Admiral.
    Mr. Pekoske, I go back to my question every time I see you. 
This has to do to the TSOs and the manner in which they are 
paid. Have you ever costed out the differential of putting the 
salary schedules in the sort-of normal schedule that civil 
servants get as opposed to the sort-of, forgive this, random 
sort-of salary and increased protocols that you have? Do you 
think that being part of the system system would help you with 
retention?
    Mr. Pekoske. Yes, ma'am. We are in the process of doing a 
very careful classification study of our entire TSO work force 
so we know for sure how they would class out using the general 
schedule as a comparison. Some of our initial work, however, 
indicated that if we were to make the entire TSA work force 
part of the general schedule, it would be hundreds of millions 
of dollars in additional expense per year, which creates some 
challenges for us from a fiscal perspective.
    I would also just very briefly highlight the fact that 
under ATSA, we have a lot of authority, a lot more authority 
than we would under title 5 to properly adjust pay. It is just 
the ability to pay it.
    Mrs. Watson Coleman. Well, they still seem to be the lowest 
paid on the food chain. It does seem to me that I would like to 
understand at some point what you are actually finding, what 
you are actually proposing, what you are actually doing, 
because it is something that we have actually discussed for the 
last couple of years.
    Thank you. My time is up. I yield back.
    Mr. Correa. Thank you, Mrs. Watson Coleman.
    I will now recognize the gentleperson from Florida, Mrs. 
Demings.
    Mrs. Demings. Thank you so much, Mr. Chairman. Thank you so 
much to our witnesses for joining us this morning.
    I appreciate my colleagues who have inquired about TSA 
proposed cuts to the Law Enforcement Officer Reimbursement 
Program at exit lane staffing. As a former commander of the 
Orlando International Airport police division during September 
11, 2001, I understand how important the partnership is between 
local law enforcement and the TSA, and how it is essential to 
protecting our airports from anyone who is seeking to bring 
harm. Simply put, if the job is going to get done, we know that 
we definitely depend on the local resources to do that.
    If I missed the answer to this question, please forgive me, 
since I did come in late. But, Administrator Pekoske, do you 
believe that eliminating both the LEO Reimbursement Program and 
the TSA's exit lane security, which shifts responsibility to 
local airports and local resources, is a good idea? If so, 
would you explain why, please?
    Mr. Pekoske. I think the law enforcement reimbursement 
program has been a very valuable program for TSA and certainly 
for the airports and for those law enforcement agencies. The 
reason it is reduced in the budget is simply a top line issue. 
When we have a top line that doesn't have enough room for 
everything that we do, we need to make some hard choices, and 
that, in fact, was a hard choice.
    Our airport security plans, our ASPs, require by regulatory 
action that airports provide law enforcement presence at the 
screening checkpoint. So it is a regulatory requirement that 
that service be provided, but we do very much appreciate and 
value, and I know my TSOs very much value, having that law 
enforcement presence at the checkpoint. It is simply an 
affordability issue.
    Mrs. Demings. Do you believe, Administrator Pekoske, that--
and certainly, we know that technology has made a difference in 
the way we do things, but I believe there is nothing like boots 
on the ground. Do you believe that we are safer in our airports 
because we have made this shift in the way we handle security 
at our airports?
    Mr. Pekoske. I think we are safer in our airports because 
the entire community contributes to that level of safety and 
security, both in the public areas of the airport, at the 
screening checkpoints, and certainly in the sterile area parts. 
It really is all hands on deck, as you well know, to be able to 
provide for the safety and security of the hundreds of 
thousands of passengers that are in airports on any given day.
    You also asked about exit lane staffing, and I really think 
that the solution to exit lane staffing is a technology issue. 
That is an issue I think that is well-suited to small business 
work and innovation, is, you know, how can we basically take 
the exit lane process and turn it into a technology process and 
really not require anybody to staff those positions. It is 
going to take us a bit of time to get to that point. But I 
would certainly rather see transportation security officers who 
are highly trained in operating our equipment at the screening 
checkpoints, as you know, at the screening checkpoints.
    Mrs. Demings. I would assume that you are having those 
deliberations with law enforcement as well as the 
Transportation Security Administration as you make those 
decisions. Is that correct?
    Mr. Pekoske. That is correct.
    Mrs. Demings. OK. All right. Shifting gears for just a 
moment. Following the terrorist attacks, we know that airports 
around the country purchased cutting-edge technology to quickly 
and accurately screen passengers and baggage for weapons and 
explosives. In Orlando, the Orlando National Airport authority 
invested $34 million for its baggage screening system. For 
nearly 2 decades, these airports predominantly in Florida 
waited for the reimbursements that they were due.
    Do you, also Administrator Pekoske, intend to distribute 
the $40 million appropriated in the fiscal year 2019 using the 
same pro rata formula that you used in the past?
    Mr. Pekoske. Yes, ma'am. We use a very similar formula, and 
MCO was on that list to receive reimbursement. So that won't 
close the balance completely, but it will make substantial 
progress in that regard.
    Mrs. Demings. Moving forward, will TSA support annual 
appropriations for EDS reimbursement until all obligations to 
eligible airports are fulfilled?
    Mr. Pekoske. Yes. The EDS reimbursements were added into 
the budget at the Congressional level, not at the 
administration level. Again, it gets to be an affordability 
issue. For us, we would essentially trade off our own 
technology investment or our own people investment for this EDS 
investment. So I don't anticipate that that will be--it is not 
in the President's fiscal 2020 request. I don't anticipate it 
will be in future requests either.
    Mrs. Demings. I am out of time. Thank you, Mr. Chairman. I 
yield back.
    Mr. Correa. Thank you, Mrs. Demings.
    I am going to open up a second round of questions, and 
recognize myself first.
    Admiral Schultz, earlier, one of my colleagues talked about 
the whistleblower issue. My question is what specifically has 
been done to discipline those employees who have bullied, 
harassed, or retaliated against a whistleblower? Done anything 
for discipline, training moving forward?
    Admiral Schultz. Chairman, I thank you for the question. We 
have actioned, I believe, every item that came out of the DHS 
Inspector General's report. That report surfaced mid-December. 
We had a directive task order from the Secretary after the 
shutdown that was deemed as, you know, noncritical work during 
the shutdown. We immediately took action. We have made whole 
the officer's evaluation, the whistleblower's evaluation, which 
was one of the items that was directed by the IG. We have gone 
back to our civil rights manual, changed our processes, updated 
the manual. We have put in place criteria where, you know, the 
commander has to document their findings from any type 
whistleblower bullying, hazing, harassing-type situation in the 
future.
    Whistleblowing obviously is inconsistent with our core 
values. We stand in support of any and all whistleblowers.
    The last piece of that, sir, was we are upgrading our 
training. That is marching toward completion. You know, our 
training is computer-based. In many cases, we have got to look 
at how we deploy that to ships at sea and other things. But we 
are probably three-quarters of the way on that last item. I 
believe we have actioned each and every item that the DHS IG 
has identified in that situation.
    Mr. Correa. Admiral, just to be clear, you have disciplined 
those employees that bullied and harassed?
    Admiral Schultz. Sir, the discipline piece, sir, the 
officer who was asserted--that was investigated in multiple 
investigations. The officer will be departing the service in 
September, the one that was the primary person that the 
whistleblower felt aggrieved by. That person is leaving the 
service.
    Mr. Correa. How long was this individual in the Coast 
Guard?
    Admiral Schultz. Sir, I will get back for the record. It 
was more than a 20-year career.
    Mr. Correa. Thank you, sir.
    Second question for our TSA administrator. Current 
collective bargaining agreement expires later this year. I 
presume you will commit to working with labor organizations 
representing the work force to develop a new collective 
bargaining agreement?
    Mr. Pekoske. Sir, the collective bargaining agreement 
expires in December, and we continue to work with the AFGE 
representatives. I meet with them on a very frequent basis. We 
have stood up a National advisory council that includes both 
union and non-union members of our screener work force to 
advise me on work force issues. I think the dialog is robust 
and very fruitful in that regard.
    You also see behind me some uniformed members of the TSO 
screening work force who are now on my direct staff. I am the 
staff of the head of operations, security operations in the 
head of enterprise support in TSA, to provide that conduit and 
that presence in our policy-making process. So I think there is 
very good communication and very good dialog with our screener 
work force.
    Mr. Correa. So it sounds like you are working right now, 
and you will continue to work toward a collective bargaining 
agreement.
    Mr. Pekoske. Sir, I have not made a decision yet on whether 
or not we will continue collective bargaining past the 
expiration in December 2019, but we continue to work very 
closely with both the bargaining unit employees and the 
nonbargaining unit employees.
    Mr. Correa. Restate that. You will continue to work toward 
a collective bargaining agreement?
    Mr. Pekoske. No, sir. We will continue to work with them on 
any workplace issues. I have not yet made a decision on the 
collective bargaining agreement framework for beyond December 
2019.
    Mr. Correa. Let us continue to discuss this matter further 
off-line. Thank you very much.
    I will recognize our Ranking Member, Mrs. Lesko, for second 
round of questions.
    Mrs. Lesko. Thank you, Mr. Chairman. I will be brief.
    I just wanted to say to the admiral, I had the pleasure of 
meeting with Coast Guard Auxiliary members in my district. We 
have Lake Pleasant in my district, and great people; volunteer 
their time saving lives. I want to say what a valuable program 
that is.
    I also want to thank both the Coast Guard members and the 
TSA officers and all the employees for what wonderful work that 
you all do protecting our Nation.
    My question is just do you have anything else you would 
want to add that you haven't said yet?
    Mr. Pekoske. I would just add and build on the comments you 
made. I said in my opening statement that I am immensely proud 
of the TSA work force, and I am. I think they are a phenomenal 
group of individuals.
    It is the screening work force that you see twice a week as 
you travel through airports, but there is also a lot of TSA 
that you don't see. There are folks that work the vetting 
processes that are very important to our mission success: 
Intelligence, the Federal air marshals are on flights but you 
may not be aware they are on the flight you are on, and then 
the inspectors in the airports that ensure that all of our 
regulatory requirements are being met.
    It is a fantastic team. I really appreciate your comments 
and your colleagues' comments on that work force. I really 
think they shone through during the shutdown. Working 35 days 
without pay, that commitment that is a core value of TSA was 
front and center in full display for everyone to see.
    Final comment is that we do appreciate genuinely the great 
support we had from passengers going through our screening 
checkpoints that recognized almost to a person the work that 
the TSOs were doing, and also our colleagues in the airports, 
you know, airport operators, retail vendors, and the air 
carriers. I mean, it was all fantastic, and we appreciate it.
    Admiral Schultz. Ranking Member Lesko, thank you for your 
comments about the Coast Guard Auxiliary. They will celebrate 
their eightieth birthday in June, 2,500 members strong. I would 
put it up against one of the top volunteer organizations in the 
Nation. They just have a tremendous band of skills and do some 
remarkable things, and we are very appreciative of your 
acknowledgment.
    To answer your question about what I would like to leave 
you with, we are one of the 5 armed services. We are deployed 
across the globe, geographically-based, globally deployed. You 
know, we are a Federal law enforcement agency, we are a 
maritime first responder. You saw the work of the men and women 
in the Coast Guard in 2 recent busy hurricane seasons--actually 
3; 2016, 2017, and 2018. We are a common-sense regulator.
    We really enable the economic engine of the Nation, the 
$5.4 trillion economic activity in our 360 seaports, the 
heartland waterways. We are a member of the intelligence, 
National intelligence community, and we are stewards of the 
environment. I think when you roll that all together, there is 
tremendous value for the Nation in this 11.5 or so billion-
dollar organization called the United States Coast Guard. We 
are 56,000 people strong, about 41,500 Active-Duty, 6,200 
reservists, and 8,400 civilians. We appreciate the continued 
support of the U.S. Congress here on our recapitalization of 
key assets, aviation surface assets, and allowing us to have 
the operating fund to move forward.
    That would be the one piece that I mentioned in my opening 
statement, just readiness. We have not sort-of got that bump-up 
of the other military services, and just would like you to take 
that home as a little bit of a takeaway from my testimony 
today.
    Mrs. Lesko. Yes, good point. I want to embarrass Bobby back 
here who is with the Coast Guard, who does an excellent job, by 
the way.
    Admiral Schultz. We appreciate you affording him the 
opportunity to learn more how our Government works. Thank you, 
ma'am.
    Mrs. Lesko. Thank you.
    Mr. Correa. Thank you, Mrs. Lesko.
    I now recognize Ms. Titus from the State of Nevada for a 
second round of questions.
    Ms. Titus. Thank you, Mr. Chairman.
    Mr. Pekoske, I would like to ask you about Real ID. Real ID 
was a plan that came out of 9/11. It was to go into effect 
Nation-wide, it was to be in place by May 2008, but a number of 
States were opposed to it. It was confusing, and it was a lot 
of rulemaking problems. So here we are April 2019, and it is 
until not in effect. There are about a dozen States and 
territories that haven't done this. I believe you all have said 
you hope to see it finally in place by October 2020.
    I fly back and forth from here to Las Vegas every weekend 
practically, and I see in the airport this new technology in 
biometrics and people looking into these things with retinal 
scans, and they speed through the line. Then when I come back 
into the country, the Customs has a system where you can just 
use your fingerprints.
    I am wondering, aren't we just throwing money down a rat 
hole trying to catch up with a 15-year-old plan, when we should 
be redirecting our efforts to this new kind of technology that 
provides better security?
    Mr. Pekoske. Yes, ma'am. You are correct that Real ID comes 
into full force in October 2020.
    Ms. Titus. Do you think you are going to meet that 
deadline?
    Mr. Pekoske. I believe that all States will be able to meet 
that deadline with maybe rare exception, but we are really 
gearing our messaging as we have over the course of time to 
make the public aware and certainly have worked closely with 
the States at the Departmental level on Real ID. Real ID is not 
just a benefit for aviation security. It is a benefit for any 
time you use your driver's license as a form of identification 
because it is much more secure.
    You raise good points, though, with respect to biometrics. 
We are working very closely with Customs and Border Protection 
to put a biometric system in place at airports. We have done 
some prototyping in both Atlanta and Los Angeles, wherein we do 
Customs and Border Protection biometric exit and TSA identity 
verification at the same stop. So what used to be two processes 
is now one.
    We find that, you know, certainly, biometrics are much more 
convenient for passengers, but it does require the passengers 
at this stage to be willing to give us their biometric. So far, 
we found pretty broad acceptance to that from passengers.
    Ms. Titus. Is there funding in this budget to move us in 
that direction?
    Mr. Pekoske. There is no funding specifically for 
biometrics in this budget. But what we do use are some of the 
fees that we collect for TSA PreCheck programs, because we are 
going to put biometrics in place in the PreCheck lanes first. 
So we use some of that, a very small portion of those fees to 
advance our biometrics.
    Then, you know, we are working, like I said, very closely 
with Customs and Border Protection so that we don't spend money 
in TSA that they have already spent in CBP and vice-versa that 
we can kind of join forces, if you well, and get a single 
biometrics system for the airport.
    Ms. Titus. Well, it seems to be the way to go.
    Mr. Pekoske. Yes, ma'am.
    Ms. Titus. Can I ask you just another quick question? We 
heard that during the shutdown, the Government shutdown, that 
TSA increased the number of passengers who just received 
expedited screening. I am wondering if that was the case. Was 
that true? If so, who directed that? Was that not a bad 
political decision as opposed to a good security decision?
    Mr. Pekoske. We only make good security decisions. We did 
not decide, did not, to change in any way our security 
standards during the shutdown. We were very front and center 
with that publicly to state that you should have no concerns 
because the security standards we had in place before the 
shutdown were the same standards that stayed in place 
throughout the shutdown. In fact, in some ways, we actually 
stepped up our security with some things that we had done with 
our K-9 teams. So I would say, in effect, security was stronger 
through the shutdown than it was before, because we are always 
making our security better.
    Ms. Titus. Well, that is good. I am glad to hear that.
    Then there were some problems after the shutdown for 
everybody finally getting paid for the time that they were off. 
Has that all been cleared up, and everybody is satisfied with 
that now?
    Mr. Pekoske. That has all been cleared up. It is mostly a 
systems issue. We use the National Finance Center under the 
Department of Agriculture, as does most of the rest of DHS, for 
their pay processing. You know, there were just a lot of 
transactions that were put through that pay system that the pay 
system wasn't able to handle. It took us a while to manually go 
through and correct those.
    One of the things we found is that we didn't know there was 
a problem until an employee voiced the problem, because we 
didn't have the system ability to look at where some payments 
would not have been made. But we worked very closely with the 
National Finance Center. We are on a good path with them, but 
it was a challenging process for several weeks.
    Mrs. Titus. Thank you. They voiced a lot of that to me, so 
I am glad to hear you got that straightened out.
    Thank you very much. I yield.
    Mr. Correa. Thank you, Ms. Titus.
    Just another quick question. First of all, I want to thank 
both of you. You are men and women that protect our country day 
in and day out at the airports and around the world. You have 
my full support.
    Mr. Administrator, I do have one issue, and that is that I 
am extremely concerned that you have not yet decided whether to 
enter into a new collective bargaining agreement. I would ask 
you, when will you make the decision whether you will pursue a 
new collective bargaining agreement or not?
    Mr. Pekoske. Sir, I will make that decision probably in the 
late May, early June time frame.
    Mr. Correa. Late May. Could you have us apprised, please? 
This is very concerning and very critical, I believe, to your 
working men and women of your Department. As we discussed 
earlier, we are concerned that their--their mission is a 
critical one, protecting our country. We have already 
established they are essentially underpaid for the job that 
they are expected to do. Given that the collective bargaining 
agreement does effect them and their paycheck, this is a very 
critical issue, and I would like to talk to you more off-line 
and continue to address this issue, sir.
    Mr. Pekoske. Would be happy to.
    Mr. Correa. Any further questions from the committee?
    Excuse me. Ms. Barragan, welcome.
    Ms. Barragan. Thank you.
    Mr. Correa. I recognize you, from California, for a set of 
questions.
    Ms. Barragan. Thank you.
    First, let me start by thanking you both gentlemen for 
being here today.
    Admiral, thank you for your service. I happen to represent 
the port of Los Angeles, and the work of the Coast Guard is 
amazing. I think the men and the women who day in and day out 
are on the front lines of making sure that the port is running 
efficiently and really partnering up with everybody down there 
and the work you all do on the seas is pretty great.
    I had--my State of the Union guest this year was a member 
of the Coast Guard, now retired. But I thought it was really 
important to represent at the State of the Union.
    I have a couple of questions that I want to ask you, 
Admiral. Many Coast Guard families experience significant 
financial difficulties, especially since many Coast Guard 
members are deployed away from their families. How did the 
recent Government shutdown impact the morale, recruitment, and 
retention of Coast Guard service members?
    Admiral Schultz. Congresswoman, thank you for the question, 
and thank you for your support of the Coast Guard. You 
mentioned Los Angeles, about 40 percent of the goods that we 
Americans buy in the shelves of the Macy's, the Walmarts, you 
name it, all comes through that port. So that is a key--the 
ports of Los Angeles, that will be our key vital economic node, 
and thanks for recognizing the work people do.
    The shutdown was challenging for our folks across the 
entire Department of Homeland Security. You know, on paper, it 
was 35 days. In reality, it was about a week before when people 
started recognizing they might not get paid here in late 
December until everybody got back to work. There was a budget 
finally reached there. I think there was some anxiety.
    I think we have weathered through that. You know, we have 
the highest retention of any of the 5 armed services. About 40 
percent of our enlisted men and women go on to serve upwards of 
a 20-year career, our officers is almost 60 percent.
    What we saw was tremendous resilience by our men and women 
that serve in the Coast Guard. We saw tremendous resilience in 
character from their families. I think we saw an outpouring of 
support across the Nation that embraced the Coast Guard and 
other elements of the DHS team.
    You know, folks hit me up and say, are you concerned about 
the retention? We will have to watch that a little bit in the 
rearview mirror as we move forward, but my sense is I think the 
shutdown was hard, but the resilient men and women of the Coast 
Guard--I think we are going to be fine. We are bringing more 
recruits through Cape May today than ever, and I would say the 
talent that is entering the gates is as good as we have ever 
seen.
    Ms. Barragan. Well, thank you for sharing that. I had an 
opportunity to hold a roundtable with the Coast Guard, and I 
just wanted to make sure you had an opportunity to share the 
impact as well. Know that I am dedicated to making sure the 
Coast Guard is paid and should never have to go through an 
instance where they are not being paid for the work that they 
do.
    You know, the Coast Guard has struggled to recruit and 
retain women and minorities. Out of the U.S. Coast Guard's 
41,159 Active-Duty members, only 14.6 percent are women, 13.7 
percent are Latino, and 5.9 percent are African American. What 
strategies is the Coast Guard developing to diversify and 
retain its work force? What type of resources are needed to 
ensure you succeed in your recruitment and retention efforts? 
Does the budget here allow for that?
    Admiral Schultz. Congresswoman, thank you for the question. 
Recruiting, retaining, and advancing a climate that is totally 
inclusive is one of my top priorities. My top priority is 
readiness, and the people are absolutely essential to that. We 
are linking those people initiatives to the actual readiness 
and the mission performance of the organization.
    I think 14.5 percent of females across the organization of 
41,500 Active-Duty members, we are obviously not getting, you 
know, society writ large when half the work force is women. So 
we are keenly focused on that. You know, if I look at the Coast 
Guard Academy as an example, where about half our commission 
officers come through the gates, 40 percent of cadet core is 
women. So we are doing well there. About a third of the cadet 
population, which is 1,100 cadets, is underrepresented 
minorities. The classes in the subsequent years here, those 
numbers go up to over 40 percent women that are graduating in 
2022. The incoming class this summer is projected to have 42 
percent women on the URM, underrepresented minorities. Those 
numbers go from 33 to 36 percent in the outyears.
    Through the gates of Cape May, where we bring our enlisted 
work force, we are targeting I think it is 35 percent 
underrepresented minorities--and 35 percent underrepresented 
minorities, 25 percent women. So we are fully on task to have a 
Coast Guard that is more representative of the Nation we serve. 
Within the existing----
    Ms. Barragan. Can you maybe elaborate on some of the 
strategies you are doing to increase the diversification?
    Admiral Schultz. Sure.
    Ms. Barragan. Is there anything in particular maybe you 
could share with us? The second part of the question is, is the 
budget that we are looking at today, does it give you the 
resources that you need to help you with recruiting and 
retaining? Because if not, I want to know because I want to 
make sure you all have the resources to carry out the strategy 
you have to do that.
    Admiral Schultz. Absolutely. I mean, toward the end, ma'am, 
we just got the results with a contract we awarded to Rand for 
a holistic study about women's retention. Those results came 
out in late March. One of the things we established early in my 
tenure here starting last June was the Personnel Readiness Task 
Force. We have done a lot of studies in past years. This is a 
team of 7 folks to action the results.
    So we have already done some things with the initial 
findings. When women step out of the workplace to have a child, 
we have increased a new mother leave up to 41 days. Then 
primary caregiver leave, if the mom is the primary caregiver, 
they get upwards of 82 days total. The spouse secondary 
caregiver can get an additional 21 days. What we have done to 
take that to the next level is when you have a geographically 
dispersed Coast Guard small units, for a new mom to step out, 
it leaves a burden on the rest of the shipmates. There is a lot 
of pressure there. We are now taking Reservists, surge people, 
to those vacancies while they are gone to relieve some of those 
pressures. We want our women employees to be full-time, all-in 
Coasties, and the ability to be full-time moms and balance that 
in the workplace.
    In terms of the budget part of it, I think the monies are 
there. You know, there is a recruiting element. We have to 
recruit in places we haven't recruited in the past years. Back 
4 or 5 years ago, we had to make some reductions, so the number 
of recruiting offices, we have actually restored those offices 
here with the budget. We can sustain them going forward. We may 
look to take our recruiting to a couple more places. So we are 
looking at innovative ways to bring talent in from parts of the 
country we haven't recruited successfully in the past.
    Ms. Barragan. Thank you. I yield back.
    Mr. Correa. Thank you Ms. Barragan.
    Let me conclude today by thanking the witnesses for your 
most important testimony, and for the Members for their 
insightful questions.
    Members of the committee may have additional questions for 
the witnesses, and we ask that you respond expeditiously in 
writing to those questions.
    Without objection, the committee record shall be kept open 
for 10 days.
    Hearing no further business before this committee, we stand 
adjourned. Thank you very much.
    [Whereupon, at 11:38 a.m., the subcommittee was adjourned.]



                            A P P E N D I X

                              ----------                              

      Questions From Chairman J. Luis Correa for David P. Pekoske
    Question 1. The President's fiscal year 2020 budget request 
proposes a cut of 815 full-time equivalent employees from front-line 
staffing, as well as 50 canine teams. If enacted, what effects would 
such cuts have on TSA's operations, including security effectiveness 
and checkpoint wait times?
    Answer. TSA is constantly exploring ways to improve front-line 
operations, accelerate the deployment of new technologies, and gain 
efficiencies through organizational restructuring and optimizing the 
use of limited resources.
    The proposed cut to front-line Transportation Security Officers 
(TSOs) from the level in fiscal year 2019 enacted appropriations is 
based on the fiscal year 2020 legislative proposal to repeal the 
requirement for TSOs to staff exit lanes to maintain access control, as 
stipulated in the Bipartisan Budget Act of 2013 (Pub. L. 113-67). 
Today, TSA staffs 257 exit lanes co-located with security checkpoints 
at 115 airports. The proposal would transfer the requirement to local 
airport operators and allow TSA to focus its screening workforce on 
screening functions. Repealing this requirement will ensure TSO 
staffing-levels adequately meet passenger expectations, maintain 
acceptable wait times, and avoid crowding checkpoints.
    The fiscal year 2020 budget requests an additional $58.6 million, 
including associated costs, for additional Transportation Security 
Officers (TSOs) (1,028 positions/700 FTE) above the fiscal year 2019 
budget request (which also did not include TSOs for exit lane 
staffing). Due to the delays in enacting fiscal year 2019 
appropriations, the fiscal year 2020 budget request was based off the 
fiscal year 2019 budget request. The budget request includes $8.8 
million to implement improved training to facilitate career progression 
requirements for our TSOs. Fully funding TSA's fiscal year 2020 budget 
request will enable the agency to improve front-line operations.
    Regarding canine teams, because the fiscal year 2020 President's 
request was submitted before enactment of the fiscal year 2019 
appropriations, there was no opportunity to consider annualizing the 50 
additional canine teams that Congress added in the appropriations bill. 
TSA will consider that status of these canine teams in fiscal year 2021 
and future years.
    Question 2a. No attacks on an aircraft originating in the United 
States have occurred since September 11, 2001, yet attacks have 
occurred in public airport areas and surface transportation systems in 
Los Angeles, New Orleans, Ft. Lauderdale, and New York City--all within 
just the past 6 years.
    How did TSA account for trends in attacks to soft targets such as 
public airport areas and surface transportation systems when developing 
its fiscal year budget request?
    Answer. TSA addresses the risks to public airport areas and surface 
transportation systems through:
  <bullet> Information sharing, including Classified information,
  <bullet> Planning (preparing plans for countermeasures that can be 
        employed when the level of threat is elevated),
  <bullet> Training (providing training for employees to enhance their 
        awareness and understanding), and
  <bullet> Exercises (providing venues and opportunities to test plans 
        and operational practices in order to be better prepared).
    We partner closely with stakeholders in all modes of transportation 
to develop solutions to enhance security in public areas.
    In mid-September 2016, TSA began hosting Public Area Security 
Summits with industry, Government, academic, and international 
stakeholders to devise a strategy to share information, prevent 
attacks, and protect infrastructure from emerging threats to public 
spaces of transportation venues. Participation of both Government and 
industry executives provides a unique opportunity to leverage expertise 
and resources, as well as involve everyone in future security planning 
to ensure both strategic alignment and unity of effort across numerous 
entities. The work of the group resulted in the publication of a Public 
Area Security National Framework in May 2017, with 11 corresponding 
recommendations. These recommendations have served to guide TSA's 
internal resource allocation priorities to ensure this critical area is 
appropriately resourced and addressed since that point.
    Most recently, TSA in collaboration with DHS reconvened the working 
group with industry stakeholders in March 2019 to build upon the 
existing National Framework and publish best practices for protecting 
public spaces. This builds upon prior work and will influence resource 
allocation in this area moving forward.
    The Framework recommendations included: Cultivate relationships; 
develop communication strategies to enhance information exchanges; 
enhance situational awareness; expand threat awareness education; 
develop joint risk frameworks & enhance joint vulnerability 
assessments; establish airport operations centers; conduct background 
checks and threat assessments of public area workers; conduct workforce 
employee training; develop, conduct, and practice exercises and 
response drills; invest in innovative construction designs; and 
coordinate response planning.
    Question 2b. Why is TSA proposing cuts to surface transportation 
security programs given increased threat levels?
    Answer. The fiscal year 2020 request would reduce the Surface 
budget by only 1 percent from the fiscal year 2019 request due to 
expected attrition of staff during the headquarters relocation. 
Additionally, within the surface transportation systems, TSA's primary 
security focus is on oversight, cooperation, and regulation. The 
primary responsibility for security in surface transportation lies with 
the owners and operators of those systems and companies. TSA works 
collaboratively with surface transportation operators, Federal, State, 
and local security partners to ensure appropriate security postures are 
employed--this approach is distinct from civil aviation, in which 
Congress directed that TSA assume responsibility for screening all 
passengers and property at airports. DHS directs funding for surface 
transportation security grants for mass transit and passenger rail, 
trucking, freight rail, intercity buses and certain ferry systems to 
fund operational deterrence; hardening of tunnels, high-density 
stations and bridges; and other security efforts.
    For the grant programs, FEMA operates the administrative mechanisms 
needed to implement and manage the grant program. TSA actively provides 
subject-matter expertise on all matters relating to surface 
transportation security and other programmatic updates, and assists by 
coordinating the myriad intelligence information and risk/vulnerability 
assessments resulting in ranking and rating surface transportation 
assets Nation-wide against threats associated with potential terrorist 
attacks and in defining the parameters for identifying, protecting, 
deterring, responding to, and recovering from such incidents. TSA's 
resources and personnel also directly support on-going security 
programs with committed security partners who, in turn, dedicate 
millions of dollars to secure critical infrastructure, provide 
uniformed law enforcement and specialty security teams, and conduct 
operational activities and deterrence efforts. TSA invests its 
resources to help those partners identify vulnerabilities and risks in 
their operations, and works with specific owners/operators to develop 
and implement risk-mitigating solutions to address their specific 
vulnerabilities and risks.
    Question 2c. What types of initiatives would be launched to advance 
public airport area and surface transportation security if proposed 
cuts to TSA programs that support such security, such as the VIPR 
program, were enacted?
    Answer. As noted above TSA partners closely with stakeholders in 
all modes of transportation to develop collaborative solutions to 
enhance security in public areas. We will continue to invest resources 
to help partners identify vulnerabilities and risks in their 
operations, and work with specific owners/operators to develop and 
implement risk-mitigating solutions to address their specific 
vulnerabilities and risks. Additionally, on April 8, 2019, TSA 
announced the establishment of the Surface Transportation Security 
Advisory Committee (in accordance with Section 1969 of Pub. Law No. 
115-254). The STSAC will be composed of voting members representing 
surface transportation providers and users, and nonvoting members 
representing Federal departments and agencies with surface 
transportation oversight. The STSAC will report to the TSA 
administrator and will provide recommendations on surface 
transportation security matters, including the development, refinement, 
and implementation of policies, programs, initiatives, rule makings, 
and security directives.
    Question 3a. TSA recently awarded a $96.8 million contract to 
purchase 300 Computed Tomography (CT) systems from a single vendor.
    Please define for the committee TSA's final selection criteria.
    Answer. As stated in the solicitation, TSA intended to make a 
single award to the offeror whose offer represented the ``Best Value'' 
to the Government. ``Best Value'' was defined as the offer that is most 
advantageous to the Government as determined by an integrated 
assessment among technical (non-price) and price factors. The 
evaluation factors were as follows:
  <bullet> Factor 1--Production and Deployment
  <bullet> Factor 2--Technical Capability
  <bullet> Factor 3--Past Performance
  <bullet> Factor 4--Price
    The technical factors, when combined, were significantly more 
important than the price factor.
    Question 3b. Since checkpoint CT technology has been deployed by 
foreign partners for several years, did TSA assess performance data or 
metrics provided by foreign partners to inform its award decision?
    Answer. TSA conducted extensive testing on Computed Tomography (CT) 
technology over the past year to evaluate performance data and metrics, 
including requiring vendors to successfully pass AT-2 Tier II 
certification testing and to further submit their systems for 
qualification testing. In addition, TSA tested systems from each of the 
CT vendors at airports around the country over the past year.
    TSA's ability to use international data, metrics, and test results 
is limited due to different concepts of operation, testing, rigor, and 
modified equipment baselines to include software and hardware. 
Additionally, TSA considers differences in safety, throughput, power 
supply, and other requirements which requires TSA to test to its own 
compliance standards and requirements. However, TSA continues to 
collaborate with its international partners to share test data, lessons 
learned, and harmonize detection standards.
    Question 3c. How did TSA assess factors such as size and weight 
when making its award decision to ensure as many airports as possible 
will be able to support quick CT deployment? Will size or weight 
considerations limit or delay CT deployment at any Category X or other 
high-risk airports?
    Answer. TSA assessed the size and weight of each system and whether 
the system met the Government's requirements during the qualification 
process. Costs for airport infrastructure upgrades are included in 
TSA's budget requests for Checkpoint CTs. TSA is working closely with 
the airports on the modifications.
    Question 3d. What testing did TSA perform to ensure radiation from 
CT systems will not pose a public safety hazard to passengers or system 
operators?
    Answer. TSA tested all systems as part of the qualification process 
to ensure they met the radiation requirements and that radiation levels 
were under the U.S. Food and Drug Administration requirement. All 
systems met these radiation requirements.
    Question 3e. How did TSA's consideration and analysis of various CT 
systems account for varied configurations such as automated screening 
lanes?
    Answer. Under the Advanced Technology/Computed Tomography (AT/CT) 
qualification process, TSA allowed the vendor to submit a system with 
or without an auto-diverter. A full automated screening lane was not 
allowed but will be a part of the future CT program. Once the vendor 
submitted a system for evaluation and the configuration was locked 
under the qualification process, no further configuration changes could 
be made. However, fully automated screening lanes will be a part of the 
future CT program solicitations.
    Question 4a. The committee has expressed concern with TSA's 
decision to award the entire initial CT contract to a single vendor.
    How does the award to a single vendor support future competition 
and innovation?
    Answer. This initial Advanced Technology/Computed Tomography (AT/
CT) procurement is separate from any future CT competitions. TSA 
intends to issue new solicitations for future CT procurements. TSA has 
not yet determined if single or multiple awards are most appropriate 
for future procurements. In addition, TSA has awarded bailment 
agreements for test units to a number of vendors, purchase orders for 
test units, and contracts for algorithm development and prototypes to 
support future competition and innovation.
    Question 4b. Did TSA assess the impact of an award to a single 
vendor on the domestic security technology production base? If so, what 
were the results of TSA's assessment?
    Answer. While a formal assessment was not conducted, TSA notes that 
the aggressive deployment schedule required by the procurement resulted 
in all vendors offering at least some U.S.-based production capability.
    Question 4c. Did TSA assess the impact of an award to a single 
vendor on the international market? If so, what were the results of 
TSA's assessment?
    Answer. TSA believes that a vibrant, competitive international 
market, including U.S. manufacturers, for airport security equipment is 
an important aspect of moving this technology forward and successfully 
achieving TSA's mission to constantly improve airport security. As 
noted above, TSA's bailment agreements and purchase orders for test 
units, as well as contracts for algorithm development and prototypes, 
support competition and innovation both in the United States and around 
the world.
    Question 4d. What was TSA's rationale for not spreading program and 
price escalation risk across multiple vendors?
    Answer. For this initial, limited CT deployment, TSA elected to 
award to a single vendor due to the expedited schedule of AT/CT and to 
minimize schedule risk. Awarding to multiple vendors would take longer 
to deploy and have additional risk to account for training, deployment, 
and configuration across multiple vendors.
    Question 4e. Will TSA consider deploying CT systems from multiple 
vendors in individual airports? If not, how will TSA ensure that the 
vendor deploying initial systems at an airport does not have a 
guarantee for the award of all future systems at that airport? What 
costs would be associated with moving CT systems from one airport to 
another?
    Answer. Yes, TSA will consider on a case-by-case basis whether to 
deploy CT systems from multiple vendors in individual airports.
    Question 4f. How did TSA assess the possibility of a protest and 
resulting deployment delays when making its decision to award the 
entire initial contract to a single vendor?
    Answer. For this initial round of CT deployment, TSA based its 
procurement decision on providing the best value to the Government, and 
not on the possibility of protests or deployment delays. By conducting 
its procurements with fairness and transparency, TSA minimizes the 
possibility that protests will unnecessarily delay the deployment of 
improvements in security technology.
    Question 5a. You testified that TSA will consider using a small 
business set-aside as part of its efforts to purchase additional CT 
systems in fiscal year 2020.
    What factors will TSA consider when deciding whether to use a small 
business set-aside?
    Answer. The requirements of the Federal Acquisition Regulation are 
used to determine whether a procurement will be set aside for small 
business. TSA will consider small business set-asides for requirements 
where market research shows at least two small businesses are capable 
of meeting the agency's requirements. TSA anticipates that this 
consideration will be made for all requirements as they are developed 
and defined, such as potential future requirements for CT systems and 
potential future requirements for development efforts, such as CT 
algorithm development.
    As TSA analyzes its ability to field existing and improved versions 
of this advance in security technology, the agency will continue to 
consider how to encourage and accommodate small businesses.
    Question 5b. When does TSA plan to finalize and publish the 
requirements for its fiscal year solicitation?
    Answer. TSA anticipates a release sometime late in fiscal year 2019 
through mid-fiscal year 2020 for its next CT solicitation. The 
standards and specifications needed for the next solicitation are 
currently being analyzed.
    Question 6a. As TSA improves screening of carry-on baggage, it will 
be critical to improve screening of on-body threats as well. Currently, 
TSA relies on a single supplier for Advanced Imaging Technology (AIT) 
machines.
    What is the status of TSA's efforts to increase competition in 
passenger screening solutions and improve detection standards and 
capabilities?
    Answer. The DHS Transportation Security Laboratory (TSL) continues 
to perform certification testing of new equipment at the higher 
Advanced Imaging Technology (AIT) standard. This equipment may provide 
the opportunity to have 2 or more vendors capable of meeting the 
current AIT standard. Testing is also in the process of determining if 
this new system is able to perform at levels higher than our current 
AIT-2 detection standard. By the end of the second quarter of fiscal 
year 2020, TSA expects to begin qualification testing for equipment 
that meets these standards.
    Question 6b. When will currently-deployed AIT machines reach the 
end of their life cycles, and what is TSA's plan to replace them with 
upgraded technologies?
    Answer. Based on useful life analysis completed last year, the life 
expectancy of an AIT is at least 10 years, with the average age of 
TSA's AIT machines being 5.8 years. However, the data also show that 
there has been no degradation in TSA's AIT availability. As analysis of 
the AITs continues, the life cycle of the technology will continue to 
extend as long as availability remains constant.
    In addition, TSA continues to enhance the AITs with software and 
hardware upgrades, thus extending its useful life. TSA is working with 
the vender to enhance detection capabilities through the use of 
advanced threat detection algorithm software. The Targeted Threat 
Algorithm (TTA), in combination with a series of operator tools, 
provides a focused threat detection capability while improving 
throughput and the passenger experience. These enhancements include:
  <bullet> Selectable threat detection algorithms to support risk-based 
        screening;
  <bullet> Clearly identifying to Transportation Security Officers 
        (TSOs) when a secondary search on a targeted area is required; 
        and
  <bullet> Allowing one TSO to continue to screen passengers while 
        another performs a secondary search.
    Once testing is complete, these enhancements are scheduled to begin 
implementation in the first quarter of fiscal year 2020.
    The solution for replacement of TSA's AIT fleet is under 
development. The solution discussed in the Capability Analysis Report 
for Screening Traveler's/Non-Traveling Individual's Person, validated 
in March 2019, include continuing algorithm development on the current 
fleet of AITs as TSA pursues next generation screening technology.
    Question 6c. How many AIT systems does TSA plan to procure in 
fiscal year 2019 and fiscal year 2020?
    Answer. TSA does not plan to procure additional AIT systems in 
fiscal year 2019 and fiscal year 2020. TSA is reevaluating its needs, 
and will determine by the end of fiscal year 2019 if additional units 
are required. Any additional purchases would be due to checkpoint 
expansions necessary to accommodate increased passenger volumes.
    Question 6d. What is TSA's planned time line for completing 
qualification testing of new AIT machines and approving such machines 
for procurement and deployment?
    Answer. TSA has begun the process of identifying manufacturers of 
AIT screening equipment with the potential to meet, or exceed, the 
minimum screening certification standards. Manufacturers will be 
allowed to propose their equipment for testing and evaluation to meet 
TSA's standards, which will be tested through the DHS TSL and the TSA 
Systems Integration Facility (TSIF).
    Screening equipment that pass all tests through these facilities 
would meet TSA's operational, functional, and technical requirements. 
By the end of the second quarter of fiscal year 2020, TSA expects to 
begin qualification testing for equipment that meets these standards.
    Question 6e. How will TSA ensure that future AIT machines or other 
technologies used to screen passengers will be free from bias, 
including bias against passengers with religious or other headwear, 
passengers whose hair regularly causes false alarms, passengers with 
disabilities, and transgender passengers?
    Answer. TSA is working with the vendor to develop a gender-neutral 
algorithm to address concerns of transgender passengers, and is in the 
process of finding a solution in the checkpoint screening process for 
travelers with headwear. In addition, for passengers with disabilities, 
TSA is utilizing alternative screening methods and continuing to 
improve AIT algorithms to accommodate these passengers. TSA hopes to 
identify potential solutions by the end of the second quarter of fiscal 
year 2020.
     Question From Ranking Member Debbie Lesko for David P. Pekoske
    Question. In the hearing testimony, the administrator articulated 
that TSA was examining the challenges facing Phoenix Sky Harbor 
International Airport's checked baggage screening, specific to whether 
back-up servers were needed during system outages. Can TSA provide 
additional information on what the agency's response to this concern 
looks like, including a time line for resolution?
    Answer. TSA has been working with the airport and Original 
Equipment Manufacturer to address issues associated with the checked 
baggage network at Phoenix Sky Harbor International Airport. Should the 
airport experience another network failure of both the primary and 
secondary servers, TSA has provided a ``cold spare'' server for each 
network to expedite the recovery of screening operations. The servers 
are loaded with all the necessary software to enable a quick exchange 
of server equipment and resumption of operations. In addition to the 
cold spares, TSA is implementing additional physical infrastructure 
activities to improve network availability to be completed by the end 
of May 2019.
     Questions From Ranking Member Mike Rogers for David P. Pekoske
    Question 1. Are airport infrastructure constraints encumbering the 
deployment of new technologies and more lanes?
    Answer. Airport space and infrastructure constraints can make it 
difficult for TSA to deploy new equipment and add additional lanes. The 
existing footprint of checkpoint areas is limited and often 
construction is needed to accommodate new equipment and checkpoint 
expansions.
    Airports are sometimes unable to approve construction due to the 
possibility of compromising the airport structure and encroaching on 
airport/leased space outside the checkpoint area. Also, the lengthy 
construction time and the need for rigging paths has a direct impact on 
the movement of passengers through terminals and conveyance systems 
which contributes to the reluctance of the airport authority to approve 
the work. Additionally, the airport authorities frequently do not have 
funding available to modify facilities to provide for the additional 
space and expand current checkpoints. TSA continues to work with 
stakeholders to overcome these challenges in order to support mission 
requirements and address capacity issues.
    Question 2. Would funding exit lane technology save TSA money in 
the long run, rather than continuing to staff exit lanes with 
screeners?
    Answer. As of October 2018, at 117 airports there are 262 co-
located exit lanes staffed by 1,457 TSOs. Airports broken out by 
category are: 25 CAT X; 40 CAT I; and 52 CAT II, III, and IV. Costs can 
range across the airports, from $60 thousand to $100 thousand (plus 
personnel, operations, and maintenance) for a closed-circuit television 
(CCTV) system with simple video analytic capabilities, all the way to 
millions of dollars for highly sophisticated, multi-layered custom 
solutions. One CAT X custom solution cost $7 million per co-located 
exit lane. Complex, multi-layered solutions also require on-going 
annual maintenance and technology replacement/refresh, as well as 
operators, monitoring, and response personnel.
    Replacing TSO exit lane staffing with local airport personnel 
augmented by CCTV is affordable for most CAT IV airports due to limited 
number of flights per day. The cost benefit for CAT III, II, and 
smaller CAT I could be positive depending on the technology used, once 
the relatively higher initial technology costs are amortized over a 
period of years.
    For CAT X airports, exit lane technology solutions can be quite 
costly and therefore amortization will take much longer. However, 
increases in security and highly enhanced passenger flow could be a 
strong factor considered in that business case. TSA anticipates that 
initial capital costs to either airports or TSA for exit lane 
technology at CAT X airports would be significantly greater than 
continuing to fund TSO staffing. Amortization of the significant 
initial capital asset costs will take place over time, but will be 
tempered by the on-going operational and response costs cited above.
    Question 3. The TSA Modernization Act included a number of 
provisions specific to explosives detection canines. Please provide an 
update on TSA's implementation of those provisions.
    Answer. Modernization Act Section 1927, Subsection (a), Explosives 
Canine Capacity Building--ESTABLISH WORKING GROUP--Not later than 90 
days after the date of enactment of this Act, the administrator shall 
establish a working group to determine ways to support decentralized, 
non-Federal domestic canine breeding capacity to produce high-quality 
explosives detection canines and modernize canine training standards.
  <bullet> Status.--TSA and DHS Science & Technology Directorate (S&T) 
        have co-led establishment of the working group and are 
        participants. The working group includes members from American 
        Kennel Club (AKC), academia, and industry. The group held an 
        in-person meeting at TSA's Canine Training Center on April 23, 
        2019. S&T presented and the group discussed breeding model 
        comparisons using a Government-funded model and a limited 
        Government consortium model that focused on non-Federal 
        entities.
    Modernization Act Section 1927, Subsection (d), Explosives Canine 
Capacity Building--PROPOSED STANDARDS AND RECOMMENDATIONS--Not later 
than 180 days after the date the working group is established, the 
working group shall submit to the administrator proposed behavioral 
standards, medical standards, and technical standards for domestic 
canine breeding and canine training described in that subsection; and 
recommendations on how the TSA can engage stakeholders to further the 
development of such domestic non-Federal canine breeding capacity and 
training.
  <bullet> Status.--The working group met on April 23, 2019 and 
        reviewed a draft paper outlining options for a potential 
        breeding program. The working group will hold a call on May 14, 
        2019 to decide on a recommended path forward on a National 
        breeding program and finalize the date and location of the next 
        in-person meeting.
    Modernization Act Section 1927, Explosives Canine Capacity 
Building, Subsection (e),--STRATEGY--Not later than 180 days after the 
date the recommendations are submitted under subsection (d), the 
administrator shall develop and submit to the appropriate committees of 
Congress a strategy for working with non-Federal stakeholders to 
facilitate [the] expanded domestic canine breeding capacity described 
in subsection (a), based on such recommendations.
  <bullet> Status.--Based on recommendations from the working group, 
        TSA will refine domestic canine breeding best practices and 
        create a strategy to expand breeding capacity.
    Question 4a. On March 28, 2019, the TSA announced a sole source 
award of $96.8 million to acquire computed tomography (CT) cabin-
baggage screening equipment. The award announcement states a potential 
volume of 300 systems. As stated in a March 29, 2019 bipartisan letter 
from the Chairs and Ranking Members of the Committee on Homeland 
Security, the committee repeatedly urged the TSA to consider a multi-
vendor award approach. Please define for the committee the final 
selection criteria.
    Answer. As stated in the solicitation, TSA intended to make a 
single award to the offeror whose offer represented the ``Best Value'' 
to the Government. ``Best Value'' was defined as the offer that is most 
advantageous to the Government as determined by an integrated 
assessment among technical (non-price) and price factors. The award was 
not a sole-source award. Rather, it was a competitively-awarded 
contract to a single offeror.
    Question 4b. If all aspects of the criteria were relatively equal 
among bidders, excluding price, what was TSA's rationale to not spread 
program and price escalation risk across multiple vendors?
    Answer. TSA awarded in accordance with the information in the 
solicitation. There were 4 evaluation criteria: Three Technical Factors 
and 1 Price Factor. The evaluation criteria were weighted in descending 
order of importance, where Factor 1 was the most important; more 
important than Factor 2, and so on. The technical evaluation factors 
(Factors 1-3), were significantly more important than Factor 4, Price. 
The solicitation stated that as proposals become more equal in their 
non-price factors (Factors 1-3), Factor 4 ``Price'' will become more 
important.
    In addition, the solicitation stated that TSA intended to make a 
single award to the offeror whose offer represented the ``Best Value'' 
to the Government. TSA elected to award to a single vendor thus 
reducing the risk to security operations that could result from having 
varied training, deployment, and configuration requirements across 
multiple vendors.
    Question 5. TSA precedent is to single-source equipment for 
individual airports to maximize efficiency and manpower. Is this the 
planned deployment approach on this sole-source award?
    Answer. TSA will consider on a case-by-case basis whether to deploy 
CT systems from multiple vendors in individual airports.
    Question 6. Approximately 40 test and evaluation CT systems are 
already installed in airports from various vendors, what is the planned 
disposition of these systems? Will the TSA continue to evaluate this 
technology?
    Answer. Approximately 15 CT systems from 4 vendors have been 
deployed to 14 airports to screen passenger carry-on baggage/items. 
Within the next 30 to 90 days, TSA will increase the total CTs deployed 
to 19 systems at 18 airports. At this time, there is no near-term plan 
to dispose of these systems as they all meet the current TSA AT 2 Tier 
II explosive detection standards. Additionally, since TSA will perform 
future procurements for CT technology, and these companies will likely 
be part of the process, these units are needed for development of 
future requirements, and enhancements to algorithms and operational 
features.
    Question 7. Please state for the committee how the agency intends 
to address CT equipment gifted to the TSA from domestic sources other 
than the awardee? Related, did TSA engage airline and airport 
stakeholders on this selection process?
    Answer. In April 2018, TSA received an offer from American Airlines 
to provide up to 5 checkpoint Computed Tomography (CT) systems from 
Analogic for deployment to the following airports: JFK, LAX, MIA, DFW, 
and PHL. To date, American Airlines has completed an Analogic 
deployment to JFK, has one under way for LAX, and will wrap up their 
commitment with an Analogic unit to MIA. With the recent announcement 
by TSA to purchase 300 checkpoint CTs, American Airlines has elected to 
pause on the last 2 donations of Analogic CTs for DFW and PHL. In 
addition to our ability to accept CT technology, TSA is developing a 
donation policy to cover CTs, Automated Screening Lanes, and other 
Transportation Security Equipment (TSE) that would be made available to 
aircraft and airport operators for future purchases by these entities. 
However, due to the protest of the CT contract award, TSA will not 
accept any CT systems as donations for operational use at this time. 
Upon a decision regarding the protest, TSA will reassess whether offers 
of CT technology will be accepted for operational use.
    Question 8. Three CT systems were evaluated under this initial RFP 
but will not be procured. Does TSA plan to designate these systems as 
``approved'' or ``qualified'' under the AT/CT program? If so, what is 
the time line?
    Answer. At this time, none of the vendors successfully completed 
the Qualification Process outlined in the Advanced Technology/Computed 
Tomography (AT/CT) Qualified Products List (QPL), including the vendors 
that were evaluated but not awarded under the AT/CT procurement. While 
the vendors did meet the requirements for this limited AT/CT 
procurement, they do not meet all of the requirements to satisfy the 
requirements to be listed as ``Qualified or Approved'' for the purposes 
of placing on a QPL. TSA determined that it was in the Government's 
best interest to proceed to award despite not having any vendors on the 
QPL, as the AT/CT systems still provided an increase in security 
capabilities compared to currently deployed AT systems.
    Question 9. How does TSA intend to work with Registered Traveler 
(RT) vendors when considering additional changes to the passenger 
screening checkpoint?
    Answer. TSA continues to work cooperatively with Registered 
Traveler (RT) service providers when considering additional changes to 
the passenger screening checkpoint.
    The primary focus for TSA at the passenger screening checkpoint is 
the secure and efficient screening of all passengers. Where RT programs 
fit into, and support, the screening checkpoint operations, we will 
welcome RT vendor participation in the process. RT vendors participated 
in TSA industry day sessions on biometrics on March 11, 2019 and TSA 
PreCheck industry day on March 15, 2019.
    We continue to have direct dialogue with RT vendors on areas of 
mutual interest to ensure that we are maximizing security and customer 
experience at the passenger checkpoint.
    The RT program operates under a statutory framework, authorized in 
the Aviation and Transportation Security Act (ATSA) Pub. L. 107-71,  
109(a)(3) (Nov. 19, 2001), with further safeguarding provisions later 
codified in the Department of Homeland Security Appropriations Act, 
2015, Pub. L. No. 114-4,  536 (2015). Under this framework, TSA-
regulated airport or aircraft operators contract with RT entities to 
provide identity verification services. TSA's security programs 
prohibit RT service providers from escorting passengers past the Travel 
Document Checker (TDC) and the provider must ensure that passengers 
present their boarding pass to the TDC for validation. The TDC function 
is an inherently Governmental function and plays the key role in 
ensuring the passenger receives the appropriate level of screening.
    Question 10. Administrator Pekoske, you have previously stated your 
intent to de-couple qualification testing and evaluation of new 
technology from TSA's acquisition cycles in order to more rapidly 
introduce new capabilities and address current and emerging threats. 
What steps have been taken to move forward to qualify new AIT 
technology?
    Answer. In fiscal year 2016, the TSA's Innovation Task Force 
partnered with the vendor of an internationally deployed AIT system to 
assess, for demonstration, their technology in TSA operations. To 
facilitate this demonstration, DHS Science and Technology Directorate's 
Transportation Security Lab (TSL) certified this technology at the TSA 
lowest detection standard of AIT. With the certification, TSA procured 
and deployed a small quantity of these systems for installation at U.S. 
airports in order to assess the feasibility and impact of the 
distinctive components of this technology. We are assessing the impact 
of this equipment on security effectiveness, operational efficiency, 
and passenger experience. The results are informing requirements for 
future systems.
    TSL continues to perform certification testing of new equipment at 
the higher AIT standard. This equipment may provide the opportunity for 
TSA to have two or more vendors capable of meeting the current AIT 
standard. Testing is also in the process of determining if this new 
system is able to perform at levels higher than our current AIT-2 
detection standard.
    TSA has begun updating applicable acquisition documentation to 
initiate additional qualification testing for on-body scanners that 
meet or exceed the current equipment standards.
    Question 11. How does the TSA capture airport construction and 
checkpoint expansion projects to determine the quantities and time 
lines needed to properly equip new, renovated, or expanded checkpoints?
    Answer. When an airport authority notifies TSA of an airport 
expansion project, the project is registered in TSA's Equipment Request 
Interface (ERI), which includes a list of needed Transportation 
Security Equipment (TSE).
    These submissions are reviewed and a capacity analysis of passenger 
volumes and flight loads is conducted to determine if additional 
equipment and staffing is justified.
    A design review is also conducted to determine if the design 
developed by the airport meets the requirements of the TSA Checkpoint 
Requirements and Design Guide.
    If the request for additional equipment is justified and equipment 
is available, TSA actively participates in the planning process from 
conceptualization of the design through full deployment and integration 
of equipment to include determination of time lines, equipment needs/
allocations, and deployment phasing plans to minimize the impact to the 
airport operations.
    Question 12. The FAA Reauthorization Act of 2018 required a review 
to examine potentially moving the TSL from DHS's Science and Technology 
Directorate (S&T) to TSA. Would TSA's administration of the TSL support 
efficiencies, alignment with the TSA mission, and hold the potential to 
expedite the introduction of new, higher-performance technology and 
capabilities to support U.S. airport checkpoint screening operations?
    Answer. In response to the FAA Reauthorization Act requirements, a 
working group was convened to examine the costs and benefits of 
transferring the TSL from S&T to TSA. The review is not yet complete, 
and we expect the working group to deliver the joint report and 
recommendations to the Secretary in early fiscal year 2020. As part of 
this effort, the working group has been tasked with providing 
recommendations for better efficiencies, administration, and oversight.
    Question 13. Has TSA made any progress in accomplishing your stated 
goal of combining resources of TSA PreCheck and CBP's Global Entry?
    Answer. Over the past 18 months, the TSA and CBP Trusted Traveler 
Programs (TTP) Working Group have evaluated several potential 
integration options in support of greater alignment between TSA (TSA 
PreCheck) and Global Entry (GE).
    As part of that effort, DHS will launch an updated, public-facing 
web content designed to provide the public with consistent messaging 
and specified selection options for TTPs. Through the site, applicants 
will receive clear guidance on the differences between the TTPs so they 
can make an informed decision on which program best suits their needs.
    A second effort is aimed at coordinated marketing initiatives 
across TTPs. Collaborative marketing efforts between TSA and CBP will 
reduce the unintentional prioritization of one program over another and 
help applicants decide which program best fits their travel needs and 
habits.
    While there are significant differences in the application, 
vetting, and enrollment standards and processes for the TSA and CBP 
programs, the Working Group will continue to identify methods to best 
combine resources for increased efficiencies and to better serve the 
traveling public.
       Questions From Chairman J. Luis Correa for Karl L. Schultz
    Question 1. In a February 2019 report, GAO found that about 45 
percent of the Coast Guard's shore infrastructure is beyond its service 
life, and current backlogs of maintenance and recapitalization projects 
will cost at least $2.6 billion to address. The President's fiscal year 
2020 budget request fails to include sufficient funding to address this 
backlog. What are the potential effects of failing to invest in 
upgrades to shore infrastructure?
    Answer. Continuing to defer recapitalization and maintenance of 
shore infrastructure is costly, creates health and safety issues, and 
can lead to failures that directly impact Coast Guard operations. 
However, the Coast Guard has worked with the administration over the 
past couple of fiscal years to increase the priority for funding 
requests for infrastructure projects.
    Question 2a. The fiscal year 2020 budget proposal includes $1.2 
billion to continue the Coast Guard's modernization of vessels and 
aircraft. However, this funding is not sufficient to address all of the 
Coast Guard's capitalization needs.
    Under currently-enacted funding levels, what capability gaps does 
the Coast Guard expect to face as a result of assets that will be 
decommissioned before new assets are operational?
    Answer. The Coast Guard does not anticipate decommissioning any 
surface or aviation assets in fiscal year 2020 without replacement in 
accordance with our planned programs of record.
    Question 2b. Which of the capability gaps discussed in your 
response are addressed by the fiscal year 2020 budget proposal?
    Answer. The fiscal year 2020 President's budget supports delivery 
of additional Fast Response Cutters, Offshore Patrol Cutters, National 
Security Cutters, and Polar Security Cutters. Additionally, the budget 
includes funding to sustain our aging rotary wing aviation assets and 
missionize our fixed-wing assets.
    Question 2c. What additional capability gaps, if any, would the 
Coast Guard expect to face if the fiscal year 2020 budget proposal were 
enacted without additional funding?
    Answer. Funding included in the fiscal year 2020 President's budget 
maintains the Coast Guard's highest priority acquisition project the 
Offshore Patrol Cutter, and continues on-going recapitalization 
projects.
    Question 3. The committee has expressed concern over diversity and 
inclusion within the Coast Guard. What funding does the fiscal year 
2020 budget proposal include to support the Coast Guard's Diversity and 
Inclusion Strategic Plan, and how does that funding compare to funding 
in each of the past 5 years?
    Answer. Diversity and inclusion initiatives are predominantly 
policy changes and are funded from existing resources. The fiscal year 
2020 President's budget includes additional funding for a focused 
Personal Ready Task Force. The Task Force is part of an on-going effort 
to recruit, train, support, and retain a mission-ready total workforce 
that reflects the diversity and best talent of our Nation.
     Questions From Ranking Member Mike Rogers for Karl L. Schultz
    Question 1a. The TWIC program has had more than its share of 
problems, as the GAO and the DHS Inspector General have regularly 
documented, particularly regarding electronic TWIC readers. That was 
why Congress, in December 2016, passed a law requiring DHS to 
commission a study of the effectiveness of the TWIC program, which has 
yet to be delivered to the committee. Last August, Congress passed 
another law, unanimously in both Houses of Congress, suspending the 
Coast Guard's 2016 TWIC Reader Rule until 60 days after DHS completes 
that study and submits a report about it to Congress. Can you inform 
the committee what the status of that study is?
    Answer. The U.S. Department of Homeland Security (DHS) has directed 
that an assessment of the Transportation Worker Identification 
Credential (TWIC) Program be conducted. The Homeland Security 
Operational Analysis Center (HSOAC), is conducting the assessment, 
through a contract with the DHS Science and Technology Directorate 
(S&T). It is the Coast Guard's understanding that the assessment is 
expected to be complete by the end of July 2019.
    Question 1b. Last year, a Federal judge stayed the effective date 
of the TWIC Reader Rule because she was concerned that the Coast Guard 
had not adequately analyzed its economic or security impacts. The 
original study law said that, if the study identifies a deficiency in 
the TWIC program, DHS must develop a corrective action plan and must 
consider that plan in any rulemaking DHS conducts related to the TWIC 
program. Will the Coast Guard commit that it will use the results of 
the TWIC study as the basis for a new rulemaking that will address the 
shortcomings of the previous TWIC Reader Rule?
    Answer. Once complete, Coast Guard will review the assessment and 
move forward with the TWIC Reader Rule implementation process, taking 
into consideration the assessment's findings, coordination with the 
Transportation Security Administration, and direction from DHS 
leadership.
    Question 2a. When focusing on the Coast Guard's budget theme of 
``readiness,'' what is the Coast Guard's guiding strategy or plan for 
achieving desires readiness?
    Answer. The Coast Guard's top priority is Service readiness, the 
plan for this is laid out in the Coast Guard Strategic Plan. This plan 
focuses on cultivating a mission-ready total workforce through 
empowering all members of the Coast Guard, broadening diversity, and 
making the Coast Guard an employer of choice. In addition, the Coast 
Guard will modernize assets, infrastructure, and mission platforms to 
meet increasing demands. This will be done through the acquisition of 
the Offshore Patrol Cutter, Polar Security Cutter, and Waterways 
Commerce Cutter as well as investments in our Command, Control, 
Communication, Computers, Cyber, & Intelligence (C5I) enterprise, shore 
infrastructure, aircraft fleets, and other technologies that enable 
mission success.
    Question 2b. What is the Coast Guard's time line for achieving 
readiness?
    Answer. While individual assets have acquisition project time 
lines, overall readiness is an on-going process as legacy assets are 
recapitalized and replaced with more capable and efficient assets. 
Evaluating and implementing emerging technology is also an on-going 
effort with no definitive time line.
    Question 2c. How will the Coast Guard's new Fast Response Cutters 
improve the service's readiness and capabilities, compared to formerly-
used vessels?
    Answer. The Fast Response Cutter (FRC) incorporates many 
improvements over the Coast Guard's 110-foot Island Class patrol boats, 
including an integrated command-and-control system, an advanced 
communications suite, increased sea-keeping ability, modern armament, 
and a more-capable stern launched over-the-horizon cutter boat.

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
